<html>
<title> - PROTECTING SMALL BUSINESS AND NATIONAL PARKS: THE GOALS ARE NOT MUTUALLY EXCLUSIVE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
    PROTECTING SMALL BUSINESS AND NATIONAL PARKS: THE GOALS ARE NOT 
                           MUTUALLY EXCLUSIVE

=======================================================================

                             FIELD HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

              WEST YELLOWSTONE, MONTANA, JANUARY 26, 2002

                               __________

                           Serial No. 107-40

                               __________

         Printed for the use of the Committee on Small Business







                    U.S. GOVERNMENT PRINTING OFFICE

78-291                     WASHINGTON : 2002


--------------------------------------------------------------------------

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                      COMMITTEE ON SMALL BUSINESS

                  DONALD MANZULLO, Illinois, Chairman

LARRY COMBEST, Texas                 NYDIA M. VELAZQUEZ, New York
JOEL HEFLEY, Colorado                JUANITA MILLENDER-McDONALD, 
ROSCOE G. BARTLETT, Maryland             California
FRANK A. LoBIONDO, New Jersey        DANNY K. DAVIS, Illinois
SUE W. KELLY, New York               BILL PASCRELL, Jr., New Jersey
STEVE CHABOT, Ohio                   DONNA M. CHRISTENSEN, Virgin 
PATRICK J. TOOMEY, Pennsylvania          Islands
JIM DeMINT, South Carolina           ROBERT A. BRADY, Pennsylvania
JOHN R. THUNE, South Dakota          TOM UDALL, New Mexico
MICHAEL PENCE, Indiana               STEPHANIE TUBBS JONES, Ohio
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
DARRELL E. ISSA, California          DAVID D. PHELPS, Illinois
SAM GRAVES, Missouri                 GRACE F. NAPOLITANO, California
EDWARD L. SCHROCK, Virginia          BRIAN BAIRD, Washington
FELIX J. GRUCCI, Jr., New York       MARK UDALL, Colorado
TODD W. AKIN, Missouri               JAMES R. LANGEVIN, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  MIKE ROSS, Arkansas
BILL SHUSTER, Pennsylvania           BRAD CARSON, Oklahoma
                                     ANIBAL ACEVEDO-VILA, Puerto Rico
                      Doug Thomas, Staff Director
                  Phil Eskeland, Deputy Staff Director
                  Michael Day, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 26, 2002.................................     1

                               Witnesses

Mainella, Hon. Fran, Director, National Park Service.............     1
Walker, Robert, Flagg Ranch Resort...............................    12
Seely, Clyde, Yellowstone Tour & Travel..........................    13
Buller, Melissa, Free Heel and Wheel.............................    15
Mathews, Jackie, Greater Yellowstone Coalition...................    17
Loomis, Glen, Yellowstone Motorsport.............................    19

                                Appendix

Opening statements:
    Manzullo, Hon. Donald........................................    45
Prepared statements:
    Mainella, Hon. Fran..........................................    47
    Walker, Robert...............................................    52
    Seely, Clyde.................................................    58
    Buller, Melissa..............................................    73
    Mathews, Jackie..............................................    75
    Loomis, Glen.................................................   146
Additional Information:
    Statement of Congressman Rush D. Holt........................   157
    Letter to Hon. Norton from SBA...............................   160
    Letter to Committee from Scott Carsley, owner, Yellowstone 
      Aplen Guides...............................................   173
    Letter to Chairman Manzullo from Senator Baucus..............   180
    Letter to Chairman Manzullo from Peter Grant.................   182
    Bozeman Daily Chronicle article ``Congressman Stands up for 
      Snowmobilers''.............................................   184


    PROTECTING SMALL BUSINESS AND NATIONAL PARKS: THE GOALS ARE NOT 
                           MUTUALLY EXCLUSIVE

                              ----------                              


                       SATURDAY, JANUARY 26, 2002

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10 a.m., at the 
Holiday Inn SunSpree Resort, 315 Yellowstone Avenue, West 
Yellowstone, Montana, Hon. Donald A. Manzullo (chair of the 
Committee) presiding.
    Chairman Manzullo. The United States House of 
Representatives Committee on Small Business will come to order. 
Can you hear back there? Is this on?
    Audience. No.
    Chairman Manzullo. Is that better; can you hear me back 
there?
    Audience. No.
    Chairman Manzullo. Got to get it real close. We're going to 
hold off on opening formalities and opening statements and move 
immediately into the testimony of Fran Mainella; is that right, 
who's----
    Ms. Mainella. Thank you.
    Chairman Manzullo [continuing]. The Director of the 
National Park Service, who just happened to be in West 
Yellowstone on the day we scheduled this hearing. So I'm going 
to move immediately into your testimony. If you want to take a 
minute to introduce the people that are with you and the 
directors, et cetera.

 STATEMENT OF FRAN P. MAINELLA, DIRECTOR, NATIONAL PARK SERVICE

    Ms. Mainella. I'd be glad to. Thank you, Mr. Chairman, very 
pleased to be here. I'm Fran Mainella, National Park Service 
Director. I do want to introduce to everyone, if we could have 
a moment.
    Currently, our acting superintendent for Yellowstone, Frank 
Walker, if you would please stand. And our incoming 
superintendent for Yellowstone, Suzanne Lewis, will you please 
stand. Our acting superintendent for the Grand Tetons, Steve 
Iobst, if you would please stand. And our incoming 
superintendent for the Tetons, Steve Martin, would you please 
stand. And also, we have with us Karen Wade, who is our 
regional director for all these parks, about 80 some though 
actually, throughout your area--90. The number continues to 
grow. And I just want to say thank you. I also--we have a 
number of people here from the Park Service but I want to thank 
all of them for being here and also all of you and Mr. Chairman 
and Congressman Rehberg. I appreciate your willingness to allow 
me to speak for a few minutes today.
    I think the importance, as you know, of Yellowstone is not 
only just an importance to this community and to this Nation 
and internationally, and it is important that all of us give it 
the energy and time and I appreciate your consideration of 
this.
    One of the areas that I've probably been best known for and 
I was previously--I know some folks will--how much snowmobiling 
has she done? She's from the State of Florida. I was twelve 
years the State park director in Florida, but I have--I 
originally grew up in New England. I have some experience with 
snowmobiles.
    But I think the biggest thing that--I am familiar with 
working with communities. And that is something that I think 
that you'll find that you particularly, as we hired our new--
two new superintendents, one of the things we looked at is not 
only their knowledge of the resources and their ability to work 
in both visitor services and resource management, but also 
their ability to partner and work with communities. And I think 
you'll see that as an important part. It's an important part of 
any efforts.
    And you know Secretary Norton, Secretary of the Interior, 
she talks about the importance of partnership and the 
importance of working with communities. And you will see that 
consistently as we go through our supplemental EIS as well as 
anything we do with national parks throughout this Nation.
    We also know that we always have the balancing act that we 
make sure we protect those resources. We do not want impairment 
but we also want them for future generations as well as making 
sure that there is proper, environmentally appropriate access 
to our parks and also respectful--and I think in your 
particular Committee, the economic impacts that parks play in 
this community but across this Nation. And it's something that 
I think is very important for us. In fact, when I was in 
Florida, I served on the commission on tourism because of the 
realization that parks play such an important part in the 
economy of that particular State and also in the tourism role. 
But again that balancing that you must do between resources and 
the economic impact and the ability to make sure that we are 
all working at a successful manner.
    As we go forth, as you know at this point, there has been a 
decision made back in November of 2000, that was going to move 
us from any snowmobiles in the park at all to solely snow 
coaches over--in a phase out program. The Committee that had 
come forth--in fact, the Small Business Committee that had 
expressed some concern on that to Secretary Norton, I believe, 
that took place just recently, prior to the June time was--
expressed some concern about the economic analysis that was 
done that is required due to the Flexibility Act and the 
Fairness Act that acquires those things to be addressed. And 
this is something that as we go through the supplemental EIS, 
we will continue to look at the economic analysis and make sure 
that those appropriate reviews are done, and we will live up to 
those statutes.
    But at the same time what we want to make sure is that we 
move forward with our supplemental EIS, and I want to commend 
both Steve Iobst and Frank Walker, particularly what we've been 
doing most recently with kind of a pilot program this winter, 
with working with the communities more than we have ever done 
in the past; doing programs with the hotels and other areas. I 
was being briefed even more on that this morning, talk about 
proper using, proper--working well with the community. Selling 
passes at the chamber of commerce rather than at the gate as 
you enter the park and all the benefits that has provided, not 
only environmentally and probably for the comfort of the 
snowmobilers, but also for the partnership ability to have us 
all be working together at a greater manner.
    In June of--29th of 2001, the Secretary did decide that we 
do move forward with a supplemental EIS. We're in that process 
now and in fact we would expect that very shortly, in the next 
week or two in February, we will be going on the west--on the 
Internet for the four alternatives that expect to come forward. 
And I think that it's a more diverse grouping than what we have 
seen in the past. We'll be having that go on.
    The actual comment period won't begin until approximately 
March 29th, as far as the official 60 day, where the clock 
begins. But we want to encourage comments even earlier. That's 
why we're getting it on the Web early on, so that people can 
give comments. We've been working start moving forward with 
making determinations of how we go forward. And it's supposed 
to be, I believe November of 2002, for us to have the final 
determination on what we're going forward with as far as either 
continuing the original rule that came forward or going with 
one of the alternatives or some variation off of one of those 
alternatives.
    At this point again, I think the most important thing is I 
wanted you to make sure you knew that we are very respectful of 
our obligations that we need to be making in the meeting, as 
far as the Flexibility Act and the Fairness Act that is 
required as we go through this process, and I think we're again 
going to be working with outside sources to help us make sure 
those analyses are done in a way that we feel can be 
substantiated and have the good science behind them so that we 
can go forward.
    The only other things I want to just talk about again is 
the importance that the Secretary, Secretary Norton, plays on 
what she calls her four cc's, dealing with conservation but 
also make sure we also have cooperation, consultation and 
communication taking place at all times. I think when she and 
the President selected me to serve, that was part of what they 
saw in me and my past history, and I think what I will see from 
the superintendents that are coming on here as well as the 
past--some of the other folks that we have been working with, I 
think know that these are important parts to play and we will 
get our commitment to be working in that direction. I would 
welcome questions and again, you have my written testimony.
    Chairman Manzullo. The written testimony will be made part 
of the testimony.
    [Ms. Mainella's statement may be found in appendix.]
    Chairman Manzullo. Mr. Rehberg.
    Mr. Rehberg. Thank you. And, Ms. Mainella, thank you for 
being with us. We appreciate the opportunity timely as it was 
to have you here and nice to meet you.
    Ms. Mainella. Thank you.
    Mr. Rehberg. Within the various alternatives that you will 
be considering, once they're placed on the Internet and into 
the record, they can be amended thereafter based upon the 
context or do you have--context from the public or do you have 
to make a decision based upon the alternatives presented on the 
Internet and ultimately put up----
    Ms. Mainella. I will--periodically you'll see me turn over 
to my legislative counsel and also--my understanding is we put 
out four alternatives but in the end we could end up, based on 
comments and input, with some variation that may spin off of 
one of those.
    Mr. Rehberg. Based upon your prior history then of 
community involvement, that's the reason for this hearing, 
that's the reason I had the Missouri Breaks, the new monument 
up there, to try to bring additional input, give everybody 
their opportunity to have their day in court. Do you foresee 
consideration within your alternatives for the peripheral 
impact on the community?
    And where I'm going with this is there are four million 
spring and summer visitors to Yellowstone Park. If there is 
something that disrupts the provision of services in the winter 
that may end up costing businesses their opportunity to do 
business and then there would not be the opportunity to have 
enough beds, motel rooms, restaurants in West Yellowstone for 
the spring and summer population, will your consideration of 
snowmobile usage within the park put in the consideration to 
the community for things that will ultimately benefit the park? 
Because you don't want to have to create that opportunity 
within the park.
    Ms. Mainella. We always love to work with our gateway 
communities and find ways to provide opportunities in those 
gateway communities to meet some of the needs of the park. And 
as we get input and again, the Secretary, myself, and I think 
all our staff are really receptive to hearing from different 
opportunities.
    And as you know, we have been experimenting with different 
gateway community--there's even some legislation I believe that 
is trying to move forward, not dealing so much with Yellowstone 
but just dealing with how can we work better, with--not just we 
as national parks but public lands as a whole, work better with 
our gateway communities. Because oftentimes we want to make 
sure the resources--hopefully we always want to make sure our 
resources are well protected in our parks, but in doing that it 
may mean if there is a need for more beds or other things, that 
the gateway communities can help us meet that endeavor.
    In fact, we've even been looking at and this is kind of a 
spin off--we're doing a pilot that will be coming forth shortly 
on how we can do housing additionally besides being in the park 
for our own employees, but work with our gateway communities to 
find abilities to put some of our employees housing; and many 
of that's here already. And many of that's here already. 
Because partnerships are win-win. Winning means the park has to 
make sure that resources are well protected, the visitors well 
served, but also we need to make sure we work well with the 
community. So everybody--no one maybe gets exactly all that 
they're looking for but basically we feel like each has a win 
taking place.
    Mr. Rehberg. Will those kind of alternatives show up in 
the--those kinds of ideas show up in the alternative?
    Ms. Mainella. I think it's all going to depend on the 
comments that come in, because we shouldn't probably 
predetermine in advance what those comments are going to be 
until we open them, but we would want to be reflective of those 
comments and then make determinations that could hopefully 
reflect some of those options.
    Mr. Rehberg. One final question, Mr. Chairman, and that is 
the chicken and the egg situation. We talked about snow 
coaches, but if they're not available, they're not available. 
Ford Motor Company has stepped forward on the buses in Glacier 
Park. They don't seem to be moving quite as quickly for one 
reason or another. Are you going to be able to take 
administratively a position of if certain things happen then 
this decision will be made, but if this doesn't happen in a 
timely fashion, there will be an economic disruption to the 
community and X will happen. Can you do that within the 
alternatives and ultimately?
    Ms. Mainella. My understanding, we can, you know, as the 
alternatives, we can look at the alternatives, there's four to 
give comment on; but as we work off--I know one of the--already 
just from the cooperators and others, we ended up moving like 
an additional One-A and One-B alternative to make Ford--to push 
back even consideration to snow coaches as quickly as the 
record of decision would come forth because of not having the 
possibility of having them in place. You can't put something in 
a game plan if you can't produce that option. So you have to be 
ready to make whatever modifications are ready to do, you know, 
to reflect what--what is realistic.
    Mr. Rehberg. So you would be able to spread out the time 
of, if there is a phasing down of the number of machines per 
day----
    Ms. Mainella. That very well could be. Again, the only 
thing we can do is--and I think the advice we've been given is 
make sure when you go out with those alternatives, you're 
here--we're here to listen, take input and then formulate from 
those ideas and a work with our cooperators and help with that 
cooperation.
    Mr. Rehberg. Thank you very much. Thank you, Mr. Chairman.
    Chairman Manzullo. I have a question as to the procedure, 
my understanding is that you're working with a supplemental 
EIS?
    Ms. Mainella. That's correct sir.
    Chairman Manzullo. That will be done when?
    Ms. Mainella. We're supposed to have the--that out on the 
Internet, I would say February--in the second week of February, 
is that--end of the second week of February. And so that will 
be the four alternatives to at least start making comment on. 
Our official--where we print hard copy, not via the Internet 
but hard copy will be coming out in March. I think that final 
has to be out and circulated March 29th and then they have 60 
days. That's where the official legal clock begins. But we want 
to get it out, use our Internet as a method to get this message 
out more aggressively so people could have more input time to 
make those comments and make sure we're hearing and responding 
accordingly.
    Chairman Manzullo. When is the proposed rule going to be 
issued?
    Ms. Mainella. I would ask the----
    Mr. Iobst. Rule is published on the same----
    Ms. Mainella. This is Steve Iobst.
    Mr. Iobst. The proposed rule would be published through the 
Federal Register, March 29th, supplemental, draft supplemental 
comes out for public review and March 29th when you begin the 
notice of availability for the Federal Register on proposed 
rule.
    Ms. Mainella. That's where comments start coming in.
    Mr. Iobst. And they basically parallel each other.
    Ms. Mainella. I think what the chairman has asked, maybe, 
if I may, is when--I think it's November of 2002 when the 
actual final rule comes forth again.
    Mr. Iobst. That's correct. November 15th.
    Ms. Mainella. November 15th. So that's----
    Chairman Manzullo. Isn't the preferred method to have a 
period of time to comment on the supplemental EIS and then come 
out with the proposed rule? The way I look at it here, you 
could get all the information you want on the supplemental EIS, 
but I don't know if that information would be going into the 
proposed rule, because----
    Ms. Mainella. We're mandated to work from that--those--from 
the supplemental EIS to lead into that rule. And so as we go 
forth, what would be the--as we come up with draft rule 
following the--when does the--after the 60 day comment period 
closes, which would be April 29th--May 29th, from there, Steve, 
then once that closes, then we go into a process of actually 
starting to draft some kind of final rule that would come out 
as a result of that; is that right?
    Mr. Iobst. Draft both the final supplemental EIS as well as 
the final rule.
    Ms. Mainella. Final rule and final--because this is still a 
draft EIS.
    Mr. Iobst. And the draft EIS leads towards the record of 
decision which is the closure of the NEPA and the final rule is 
the closure of the rule making process. That's the reason why 
those are paralleling, is that's the time frame.
    Ms. Mainella. The settlement agreement set that time on it.
    Chairman Manzullo. I guess my question is if people want to 
have input on the supplemental EIS and on those who are 
drafting the rule, wouldn't you want the benefit of all those 
comments before you do the proposed rule?
    Ms. Mainella. We won't do the proposed rule until after all 
those comments have come in. In other words, you're going to go 
through all of----
    Chairman Manzullo. But the proposed rule is going to be 
open for comment at the same time as the supplemental EIS. Why 
don't you come up--Steve, why don't you introduce yourself.
    Ms. Mainella. I think there's a microphone right over 
there.
    Chairman Manzullo. That's why we bring our assistants with 
us, to answer the technical questions.
    Ms. Mainella. Thank you, Mr. Chairman.
    Mr. Iobst. That's Steve Iobst. The last name is I-O-B as in 
boy, S-T, the acting superintendent at Grand Teton National 
Park. The approach that we're talking on the development of a 
proposed rule that again parallels the same time frame as the 
draft supplemental EIS is that what we are going to do is--what 
we are proposing to do with the proposing rule is to extend the 
phase in period of the decision and so that when somebody sees 
the proposed rule, basically we are proposing to extend the 
implementation that then allows us to go through the 
supplemental environmental impact statement process, to final 
supplemental and then develop a final rule after the SEIS 
process is complete. So in effect, what you're suggesting is 
actually what's going to happen. But in order to meet the 
requirements of the settlement agreement, we do have to publish 
a proposed rule at the same time we come out with a draft 
supplemental EIS.
    Chairman Manzullo. I guess my question is that. I wasn't 
privy to the lawsuit or the settlement obviously, but how can 
you possibly draft a proposed rule without having the ability 
to look at the supplemental EIS and all the changes. The 
supplemental EIS is what drives the proposed rule.
    Mr. Iobst. That's correct, and that's why we are heading 
towards doing a proposed rule that does nothing more than delay 
implementation of the current----
    Chairman Manzullo. I understand. That gives you the leeway 
to----
    Ms. Mainella [continuing]. Covers us so we cannot have to 
be implementing the current rule by giving----
    Chairman Manzullo. I understand.
    Mr. Rehberg. But you will still be following the law of 
public participation because they will still have the 
legitimate time to respond to the comments that came up that 
did not fit into the supplemental EIS.
    Mr. Iobst. That's correct.
    Mr. Rehberg. They will still--there will not be an 
opportunity then to delay one more time either through a 
lawsuit or some other argument because the dates were not met 
after you've considered the variables to the supplemental EIS?
    Mr. Iobst. That's correct. We'll have that public comment 
period, again both to the draft rule as well as to the draft 
supplemental, realizing that the comment period for the draft 
rule is not a draft rule that implements an alternative. It 
just delays--defers implementation so that again there will be 
the opportunity to have a record of decision that is--that 
completes the EIS process, and then after which there will be a 
final rule making, a proposed final rule making process that 
will implement.
    Mr. Rehberg. Did the settlement document you mentioned 
November 15th of 2002, is that the drop dead----
    Mr. Iobst. That is in the settlement agreement.
    Mr. Rehberg. It has to be done by----
    Mr. Iobst. That's correct.
    Ms. Mainella. And we've been appreciative of all the folks 
working with us because we want to get it on the Internet, but 
we want to make sure we have as much input on the front side. 
That's why we've been working with different options. The folks 
here in the community, the cooperators and others that have 
worked with us in allowing to us--originally we were going to 
get on the Internet on January 21st or something of that 
nature. But because we wanted to get more input on that before 
we went on the Internet--I guarantee we will be having, you 
know, input, plenty of time for input. In fact we're going 
beyond the legal requirements of input by doing it on the 
Internet before the actual clock starts ticking.
    Chairman Manzullo. Is the Internet site up?
    Ms. Mainella. Pardon?
    Chairman Manzullo. Is the Internet site up yet?
    Ms. Mainella. That's part--that's the part that's a little 
bit of a challenge right now.
    Mr. Iobst. We realize the implications of the Department of 
the Interior National Park Service Internet site. Therefore we 
are establishing a commercial Website to post of the Website 
on.
    Chairman Manzullo. Do you have the address of the Website?
    Mr. Iobst. It's WWW--is--no, that's not what it is.
    Ms. Mainella. We will make sure----
    Mr. Iobst. We don't have that yet. It's a commercial site 
that we're actually establishing through a commercial firm in 
Jackson, Wyoming. When we do the announcement of its 
availability on the Internet, which will be sometime around the 
first week, beginning of the first week of February, 
anticipating taking a few days to get it up and running, that 
will be announced and we also are--people that have been 
involved in this process starting back in early 1998, which is 
up--a mailing list of up to about 85 thousand, they all get a 
post card that has the Internet site on it as well as do they 
want a copy to be mailed to them on March 29th. So there will 
be a--and then we'll be public--you know, press releases 
through news media out of Yellowstone and Denver and Grand--and 
Jackson, Grand Teton National Park, announcing the availability 
on the Website and what that Website is.
    Ms. Mainella. And we will, Mr. Chairman, make sure the 
Committee has all that information so we will make sure you 
receive that.
    Chairman Manzullo. I have no further questions.
    Mr. Rehberg. I do not either.
    Chairman Manzullo. Appreciate the fact that you're here 
coincidentally and able to appear with us Steve.
    Ms. Mainella. I thank you, Mr. Chairman.
    Chairman Manzullo. You have an airplane to catch.
    Ms. Mainella. Actually, Mr. Chairman, I'm going to be doing 
some snow coaching, snowmobiling and a few other experiences 
and a chance again to visit with some of your constituents just 
yesterday, and they all wish you the best.
    Chairman Manzullo. Thank you so much. If we could have the 
second panel come up. Phil, if you could put a chair there, as 
we have each person testify, I'm just going to have them move 
to the place where Director Mainella was sitting, that way, get 
better eye contact with the public. Second panel.
    What we're going to do is the witnesses up here will give 
their testimony then Congressman Rehberg and I will ask them 
questions. And then we're going to do something a little bit 
unusual for congressional committees. We're going to set up a 
public microphone out there and if you want to give a comment, 
we'll have to put a time limitation on it. We'll see where we 
are and then just line up to give the comments and we'll have 
to cut it off after a certain period of time. We're missing 
somebody. Bob. Is Bob Coe here? No. Well, let's move into our 
opening statements and do some of the formalities now.
    You might want to ask yourself a question, why did the 
Chairman of the Committee on Small Business travel from 
Washington, DC, to West Yellowstone, Montana, to convene a 
field hearing on snowmobile access to America's national parks 
and in particular, Yellowstone National Park.
    This Small Business Committee has spent a considerable 
amount of time dealing with the Federal Government in two 
aspects. One is in the regulatory aspect and the other is in 
the competitive. We were able, in hearings this past year, to 
do a couple of things. It was a small business hearing that 
stopped the Department of the Army from buying black berets for 
our servicemen and women from China and other countries. So you 
can thank us for being out on the leading edge of that in a 
very contentious 4\1/2\ hour hearing.
    The Small Business Committee had to subpoena in several 
witnesses and several documents to put an end to the 
disgraceful practice carried on by our own government in 
preferring foreign competitors for clothing and shoes as 
opposed to our domestic competitors. That law has now been 
changed. It's back into effect where it was before and it 
resulted in saving literally hundreds of jobs.
    Secondly, we got involved with the Veterans Administration 
when they decided to go into the commercial laundry business. 
They were contracting for colleges and universities and hotels. 
We held a hearing in Washington, and stopped that practice. 
Someone from the VA came in and said, Congressman, we 
understand that the VA should not be in competition with small 
businesses. That decision by the VA saved a hundred jobs in the 
congressional district that I represent, which is the northern 
part of Illinois.
    We also got involved with the Federal Prison Industries. 
This is an organization that makes products in the Federal 
prisons at wages that are about 25 cents an hour. So when 
people talk about importing things from China and other 
countries where they pay low wages, the United States itself is 
one of the lowest wage payers. And we got the Federal Prison 
Industries out of making electronics because they were knocking 
out hundreds if not thousands of American jobs.
    So that's why we're here. We're concerned many times about 
an overactive government or a government that's lost its focus. 
This came to our attention several years ago when we discovered 
the trail of snowmobiling starts in the national park here and 
in West Yellowstone, but it has a national impact. It's a seven 
to eight billion dollar industry. And so we're here to talk 
about that. Talk about the economic impact and obviously, 
balancing that with the necessity to have a good environment.
    My wife is a microbiologist who traveled with me but 
unfortunately, she's ill this morning and she's in the room. 
She understands this. I've practiced a lot of environmental law 
when I was in the private sector. We also have a teenager who's 
a severe asthmatic, so we have a distinct interest in making 
sure that the environment is clean.
    The recreational use of snowmobiles has a significant 
economic impact on small businesses in small rural communities 
dependent upon winter tourism, including West Yellowstone, 
Montana. Production of use of snowmobiles contributes seven to 
eight billion dollars in the American economy, creates roughly 
75 thousand jobs, most of which are located in small 
businesses. When the National Park Service issued its final 
rule phasing out snowmobiles in Yellowstone National Park, it 
determined that the final rule would not have a significant 
economic impact on a substantial number of small entities. A 
drive through West Yellowstone, Montana, quickly will 
demonstrate the fallacy of that conclusion. That's when the 
Small Business Committee and the Small Business Administration 
through Office of Advocacy got involved and said this is small 
business.
    Almost all the businesses in West Yellowstone are small and 
in the winter depend heavily on income from snowmobilers. In 
turn, the community of West Yellowstone, Montana, relies on 
those businesses and the tax revenue from tourists to provide 
public resources. Today's hearing is designed to demonstrate 
that protecting the beauty of Yellowstone National Park need 
not come at the expense of America's small businesses and rural 
communities.
    At today's hearing, we have heard from Director Mainella 
about the decision making process. In addition, we'll hear from 
people who live near the park about the impact that 
snowmobiling has on their businesses and communities. We look 
forward to your testimony for ideas that you may have on ways 
to accomplish the preservation of the park and preservation of 
the rural economic base.
    The normal standard is to limit your testimony to five 
minutes each. When you start approaching five minutes, you'll 
notice I get a little bit fidgety. When you start running over 
five minutes, you hear the tapping. If you go too far beyond 
that, then the tapping turns to a mallet smash. So--before I 
get into that, all the testimony that the witnesses have and 
any testimony of the audience, written testimony provided does 
not exceed two single-spaced pages--from the audience--will be 
made part of the permanent record. We'll keep that open for 3 
weeks from today.
    And we have letters from Senator Thomas and Senator Baucus.
    [The information may be found in appendix.]
    Chairman Manzullo. Mr. Rehberg, when you give the opening 
statements will you introduce the representatives from the 
various senatorial and congressional offices? Thank you.
    Mr. Rehberg. Thank you very much, Mr. Chairman, and thank 
you for coming to Montana on an issue that we feel is very 
important to the State of Montana, from whatever side you come 
down. And you'll find in this State that natural resources and 
some of the conflict that exists within natural resources is 
one of the most emotional issues that occurs within our State 
and we're continuing trying to find ways to ameliorate the 
problems on both sides and trying to find some kind of a common 
ground; and so I appreciate you coming out.
    This is a first for me, of course, this has been a year of 
firsts. I'm sworn in as your new United States Congressman, 
representing the entire State of Montana, on January third. 
This is my first official congressional hearing, and I thank 
you for coming out and doing that. It's a little hard for me as 
well, the formality, because we're used to having town hall 
meetings in Montana where it's kind of rag tag, and everybody 
gets an opportunity--yeah, take your tie off and we'll just 
invite everybody to come and sit up here. It was important 
enough that I invited the Small Business Committee out to 
listen to the concerns within the community. Now you'll notice 
that this is not the Environmental and Public Works Committee, 
and it is specifically the Small Business Committee.
    The thing that happens in government more often than not is 
one element or another doesn't feel their government is 
listening to them. Sometimes that works for us, sometimes it 
works against us. When the government makes the decision we 
agree with, we say no more public input; you've studied this 
thing to death, let's make the decision and move forward. Well, 
the other side says well, that's not fair. That's what's 
occurring in this situation.
    The small business community and the community of West 
Yellowstone felt like the last administration didn't fully hear 
their perspective on the economic impacts that were going to 
occur to their families. What I've tried to accomplish over the 
years as your congressman is to create an opportunity or an 
environment for the discussion to have an ability for all sides 
to be heard. This is not intended to be a free for all, this is 
intended to provide information so that the right decisions can 
be made by our National Park Service within the executive 
branch. Until such time as we feel like everybody has had their 
opportunity in court or their opportunity to provide that 
input, then we will continue having meetings like this. So the 
Small Business Committee is here today to hear specifically 
from people, their perspective on whether there will be an 
economic impact on the community. And that's only fair. I think 
everybody agrees that that's only fair.
    Consensus is always a hard thing to find, but I prefer the 
consensus process. I created the consensus council in Montana 
for the specific purposes of trying to find common grounds so 
people don't divvy in the corners and end up having to hire 
attorneys and sue their way back out. I've teamed up with 
Governor Mark Racicot, former Governor, now in Washington, DC, 
and we've introduced legislation to create the national 
consensus council. It's not in place to help us with this 
process, but it's a good format to follow.
    And if you believe in the holistic approach, you will agree 
with our proposal of hearing from all sides, whether it be an 
environmental impact statement or an economic impact statement 
on the type of impacts that will occur within communities such 
as West Yellowstone, who are created merely to service the 
public that are coming to access our parks. And if they don't 
exist, then either people are going to want additional 
construction within their parks by the government, 
concessionaires or there will be a problem because there will 
not be the opportunities to have the motel rooms necessary or 
the facilities necessary to house them when they come to 
participate in their national park.
    I would like to quickly introduce those members, and I'll 
just have them stand up and wave at the audience, who are here 
from other congressional offices. We have a representative from 
Barbara Cubin's office, the Congresswoman from Wyoming. Would 
you stand up. Thank you for being here. We have a 
representative--two, actually, from Senator Conrad Burns' 
office. Would you both stand up and wave. There's one. And 
there's a representative from Max Baucus' office. Is anybody 
here from Senator Enzi or Senator Thomas' office? We understand 
that they did submit written testimony, and we thank you all 
for being involved.
    At this time I will introduce the four representatives from 
Montana that I have invited to be a part of this panel. They 
are my constituents, and first is Jackie Mathews, Greater 
Yellowstone Coalition and the Blue Ribbon Flies of West 
Yellowstone; Clyde Seely of Yellowstone Tour and Travel. And 
Clyde, we thank you in addition for being here, also turning 
over your facility to this congressional hearing. That's very 
kind of you. Glen Loomis from the Yellowstone Motorsports of 
West Yellowstone; and Melissa Buller of Free Heel and Wheel of 
West Yellowstone. We thank you for being here. The other two 
members of the panel are from the State of Wyoming, at the 
request of the Wyoming delegation. Bob Coe, who has not shown 
up yet. He's with the Tepee Resort in Cody, and Bob Walker from 
the Flagg Ranch Resort from Moran.
    Chairman Manzullo. Mr. Walker, we'll look forward to your 
testimony. It's a five-minute clock, and I presume you'll 
summarize this lengthy statement that you gave me. Thank you.

         STATEMENT OF ROBERT WALKER, FLAGG RANCH RESORT

    Mr. Walker. Thank you, Mr. Chairman, Congressman. My name 
is Robert Walker and I'm the CEO, majority owner of 
International Leisure Host, a public corporation of about 600 
people. International Leisure Host operates Flagg Ranch Resort, 
which is located about two miles from the south entrance to 
Yellowstone. During the winter we offer cabin rentals, food and 
beverage service, gasoline, sales and other merchandise. In 
addition, we provide a staging point for the snow coaches and 
other snowmobiling operations from the south end of the park 
and from Jackson; Our contract is a concession contract with 
the National Park Service. The concession contract began in 
1989. It terminates in 2009, so we have about seven or eight 
years to go yet.
    The phase out of snowmobiling, since it's about 90 percent 
of our income, will obviously cause us a financial situation 
which we will probably close Flagg Ranch in the wintertime. The 
financial effects in summary during the balance of our contract 
will be a loss of revenue of about ten million dollars. The net 
income loss to the corporation for the remainder of the 
contract will be about one million eight hundred thousand 
dollars based on the last two years of operation.
    We employ about 50 people during the wintertime at a gross 
salary of about 225 thousand dollars; and obviously, if we 
close, both the employment and the compensation would be 
eliminated. The present record of decision has an interim phase 
in period, which is real significant to us, in that it would 
allow about 90 snowmobiles to enter through the south gate of 
Yellowstone on a daily basis. Our contract actually authorizes 
85 snowmobiles to go into the park daily, and I can't imagine 
that we would get the total authorization. So if you prorate 
that number, it would give us about ten snowmobiles a day, 
which would not be enough for Flagg Ranch to operate during the 
interim period.
    A little background. In '89, when the contract was signed 
with the National Park Service, Flagg Ranch agreed to totally 
rebuild Flagg Ranch. Move it from the Snake River area down by 
the river, up on a bluff above the river. Since that time, 
we've built a new lodge, new cabins, new support facilities at 
a cost of about nine million dollars.
    Part of the agreement in that contract was that we would 
get the future revenues from both winter and summer operations 
until 2009. We've spent about 95 percent of the money that 
needs to be spent and we've got about 60 percent of the income 
so far. So loss of the winter business is going to cause a 
serious problem.
    Another thing in the record of decision now and in some of 
the alternatives in the current EIS is the snow coach 
alternative. Since I got involved five years ago with Flagg 
Ranch, one of my main efforts has been to try to improve the 
snow coaches and try to determine if there was a better way to 
see the Park.
    My first impression was that the snow coaches we were using 
at that time and other people were using were becoming outdated 
or they didn't really provide the type of service and the 
comfort that I thought was needed to offer the snow coach as a 
tour. What I found out in looking at available snow coaches, a 
lot of my background is engineering, is the only snow coaches 
available at this time is to take standard off the road 15 
passenger vans and convert them using over the snow equipment. 
There are a couple different conversions, but both of those 
conversions, in my opinion, offer a marginal situation, both 
for passenger comfort and in very bad weather, from a safety 
standpoint.
    I went to Oregon and drove a snow coach which is being used 
on the Alaska north slope by a company called Tucker Snowcat 
for people transport. That vehicle does offer the safety aspect 
and they had agreed that they would build a snow coach which 
would have the comfort. They brought their snow coach out to 
Yellowstone about a year ago and we tried it. That snow coach 
did offer a lot of the things that should be offered, but the 
big thing it didn't have the capability of is the maximum 
speed. The maximum speed was 25 miles per hour. We feel it 
needs to be 45 miles an hour. The suspension system was 
definitely marginal.
    Chairman Manzullo. Bob, we're right at five minutes.
    Mr. Walker. Let me just summarize very quickly then. My 
opinion on the snow coach option is if it's going to be used, 
if needs to be phased in over six or seven years at a very slow 
rate so we can see what the economic impact is going to be. 
Because the surveys we've done, we're estimating that the 
visitation to the parks will drop to 30 percent with snow coach 
only use. Thank you.
    Chairman Manzullo. Thank you.
    [Mr. Walker's statement may be found in appendix.]
    Chairman Manzullo. Our next witness will be Jackie Mathews 
from the Greater--hang on a second. Let me take Clyde Seely, if 
that's okay with you. Clyde.

      STATEMENT OF CLYDE SEELY, YELLOWSTONE TOUR & TRAVEL

    Mr. Seely. Chairman Manzullo and Congressman Rehberg, my 
name is Clyde Seely. I'm honored and pleased to come before you 
today. I've been in the rental snowmobile business in West 
Yellowstone for about 31 years. I've been in the snow coach 
business now for about eight years. I believe I have lived the 
American dream. I first came to West Yellowstone at 19 when I 
worked as a laundry boy. I have devoted my adult life helping 
to develop the community and our affiliated businesses that I 
have listed on our cover sheet. I am proud of our little town. 
We have worked hard to be a good partner with Yellowstone by 
providing community services to millions of visitors and park 
staff. We have been severely impacted with the September 11th 
attack on our country. We will survive that. We cannot survive 
the economic fallout of the impending snowmobile ban. Let us 
not create an economic ground zero in West Yellowstone. 
Ironically, this is the time when Director Mainella and 
Secretary Norton are promoting visiting our national parks. 
They have said that the parks belong to the people and can be 
used for renewal and for the healing of the soul. Let's not 
shut the people out.
    I currently employ over 220 people, many with families. Our 
payroll is in excess of two point five million dollars. The 
money these employees make turns over many times in our 
community. The ban on snowmobiles in Yellowstone will cause 
great economic harm to our community and those who work and 
live here.
    At Three Bear Lodge, 52 percent of our total annual revenue 
comes from three winter months. We believe that a ban on 
snowmobiles would cut our revenues by 60 to 70 percent. We 
currently operate 260 rental snowmobiles. We also operate a 
fleet of snow coaches. While we market equally to snow coach 
and snowmobile clientele, only about five percent of our 
customers use the snow coach. Mr. Chairman, Congressman 
Rehberg, I have some slides. With your permission, I'd like to 
show these that graphically point out the effects that rely too 
heavily using snow coaches to replace snowmobiles. I see I'm 
right in the limelight. I'm going to move.
    This slide shows the comparison of snowmobile and snow 
coach visitors through the west gate for five different years. 
The blue indicates snowmobile, the red snow coach. As you can 
see, West Yellowstone would be financially devastated if the 
snowmobile ban goes into effect. West Yellowstone will be 
financially devastated if a 330 snowmobile per day is imposed, 
especially if the closing day for snowmobiles is Friday after 
President's holiday, as has been proposed. The next few slides 
show the effect of such a 330 snowmobile CAP day. This is mild, 
however, compared to a total snowmobile ban.
    Let's quickly scan through four years. These graphs 
represent the daily numbers of snowmobiles that pass through 
the west gate. The black box with the elongated X shows the 
effect that would have been for the past few years if only 330 
snowmobiles would have been allowed in the west entrance and 
closed after the President's holiday, as has been proposed. All 
lines outside the box represent actual snowmobilers that would 
have been excluded from the park. This would equate to an 
economic loss between seven and eight and a half million 
dollars each year from 1995 to 2001, and I think that's 
conservative.
    While we do not have a problem with making reasonable 
cutbacks on numbers of snowmobiles, we know that cutting back 
numbers of visitors will not only deny their rights to enjoy 
the park but also our economic well being. We have been told 
that new concept snow coaches would be in place to fill the 
void left by the snowmobile ban.
    We, along with the public have been led down a primrose 
path right into a box canyon. These new snow coaches have never 
been developed. What will be the public use when the 
snowmobiles are gone? Who will pay the payrolls, who will make 
the bank payments? The current makeshift snow coaches that we 
use will fail dismally in satisfying the public's needs. And 
there are many reasons for that.
    While new snow coach technology has not arrived, new 
snowmobile technology is quantum leaps ahead. The new four 
stroke snowmobile was massed produced this year. They're really 
clean and quiet. As I indicated, one of the fallacies with the 
snowmobile ban is the assumption that concept snow coaches 
would be on the snow in time to replace the snowmobile. Nothing 
could be further from the truth. New snow coaches have not been 
built. They have not been funded. It will be years before snow 
coaches can be developed and the necessary--marketing necessary 
completed.
    The proposed one or two year transition period will do 
nothing but bring economic harm to Yellowstone--West 
Yellowstone. Our community will not be pacified and lulled into 
a false sense of security that it will be okay. This proposed 
ban is not okay. It will be financially devastating to our 
community. Anyone who says otherwise does not have to meet 
payrolls and bank payments.
    My final plea is that we all work together to protect the 
park, to protect the public's choice of access and to protect 
the economic well being of Yellowstone's most dedicated 
partner, West Yellowstone. Together we can make it all happen. 
Together, we can do it right. And thank you so much for caring 
enough to come out here. Thanks for providing this forum for 
listening to our concerns. And I have included with my written 
testimony some attachments.
    Chairman Manzullo. Those attachments will also be made part 
of the record.
    [Mr. Seely's statement may be found in appendix.]
    Chairman Manzullo. Illinois, the part I come from has had 
two inches of snow so far. And when my wife and I drove out 
here just to see the snow, we were like children, to see the 
beauty of the State.
    Our next witness is Melissa Bueller----
    Ms. Buller. Buller.
    Chairman Manzullo. Buller, I'm sorry. With the Free Heel 
and Wheel. I imagine you'll tell us what the name of that 
organization is; here in West Yellowstone, Montana. We look 
forward to your testimony.

        STATEMENT OF MELISSA BULLER, FREE HEEL AND WHEEL

    Ms. Buller. Thank you for the opportunity to testify 
before----
    Chairman Manzullo. Could we have the lights come up now, 
please and bring your mic up closer.
    Ms. Buller. Thank you. My name is Melissa Buller. I am co-
owner of a bicycle and cross country ski store in West 
Yellowstone. Our store, Free Heel and Wheel has been in 
business for over five and a half years. We rent and sell 
bicycles and cross country skis. We specialize in customer 
service which involves educating visitors on non-motorized 
activities available in our area. These non-motorized 
activities include biking, hiking, backpacking, trail running, 
snowshoeing, back country skiing and cross country skiing. 
Thanks to a tremendous local support and a growing base of 
regional customers, we have been able to sustain our business 
in the snowmobile capital of the world.
    I believe a change regarding snowmobiling in Yellowstone 
National Park must occur. In our business we interact daily 
with people who are interested in exploring Yellowstone in a 
nonmotorized fashion. Currently in--a level of usage by 
inefficient snowmobiles has turned Yellowstone into a 
snowmobile park. The roads are utilized by hundreds of machines 
daily, thousands on holidays. These provide--these do not 
provide a quality experience for all visitors nor are they 
inviting for potential visitors. Often tourists visiting in 
November to ski will say they will not visit West Yellowstone 
or the park after Christmas because of high numbers of 
snowmobiles. Snow coach travelers endure extremely bumpy roads, 
and despite incredible grooming efforts, the park cannot keep 
the trails smooth with large numbers of snowmobiles.
    I am not in favor of a snowmobile ban in Yellowstone. 
Seeing the park on a snowmobile is a tradition for many people. 
I do not feel this right needs to be taken away completely. I 
feel that a limited number of clean machines in Yellowstone 
would allow for independent travel along with increased snow 
coach and non-motorized use. Diversifying the park's winter 
access will attract a broader market. This broader market could 
potentially increase visitation with less environmental impact.
    My decision to open a business in West Yellowstone was not 
strictly a business decision. Many who live in this area do so 
because of the recreational opportunities available right out 
our back door. There are locals and visitors who feel that as 
skiers, we are shut out of Yellowstone and other public lands 
in the winter because of large numbers of snowmobilers. 
Certainly, many trails could be used by skiers; however, with 
snowmobiles traveling at high speeds, it's simply not safe. The 
park could consider opening Yellowstone to skiers and 
snowshoers certain days of the month.
    People dream of skateskiing to Old Faithful on a clear day. 
During periods of low snow, like December and March, the park 
could be open for skiers and snowshoers only. There is often 
not enough snow, for over snow vehicles, yet there are still 
ample opportunities to enjoy the park on skis. An overwhelming 
response to such an opportunity could prove that people will 
choose to see Yellowstone on their own power. This could 
lengthen busy seasons with the park and gateway communities 
with little or no impact on wildlife or resources.
    The Park Service could also consider shuttle services in 
order to provide more economic alternative for non-motorized 
users in Yellowstone. Skiers also enjoy traveling 
independently. Presently, going to Old Faithful to ski for the 
day on your own is not an option unless you spend 80 to 100 
dollars to rent a snowmobile. There are also wonderful guided 
snow coach ski tours yet not all visitors need or can afford a 
guided trip.
    In my opinion the Park Service does not have the 
responsibility to maintain the economic vitality of those 
businesses who choose to utilize its resources. The Park 
Service must protect the resources and provide access in such a 
way that is not mutually exclusive or detrimental to the 
environment. The Park Service must also consider the 
overwhelming public support for reducing the air and noise 
pollution in Yellowstone. The sooner a decision is made, we can 
move toward. West Yellowstone has survived many economic 
setbacks including wildfires, government furloughs and weather. 
The changes that will occur in Yellowstone will be healthier 
for the park and West Yellowstone and the community can thrive 
as the winter recreation capital of the world. Thank you.
    [Ms. Buller's statement may be found in appendix.]
    Chairman Manzullo. Melissa, you ever testified before a 
congressional Committee before?
    Ms. Buller. No, sir.
    Chairman Manzullo. It wasn't as bad as you thought it was.
    Ms. Buller. No, sir.
    Chairman Manzullo. Thank you.
    Our next witness is Jackie Mathews who's with the Greater 
Yellowstone Coalition. Sorry about the mix up earlier, Jackie. 
We look forward to your testimony.

   STATEMENT OF JACKIE MATHEWS, GREATER YELLOWSTONE COALITION

    Ms. Mathews. Hello. My name is Jackie Mathews and I want to 
say----
    Chairman Manzullo. You have a very soft voice so you have 
to be very close to the mic.
    Ms. Mathews. I want to thank you for listening to my 
testimony today. I have lived in West Yellowstone----
    Chairman Manzullo. They still can't hear you.
    Ms. Mathews. Thank you. My name is Jackie Mathews. Thank 
you for listening to my testimony. I've lived in West 
Yellowstone for 23 years. My husband Craig and I started Blue 
Ribbon Flies, a fly fishing retail and guiding business 22 
years ago. We have customers who come from all over the world 
to fish here. They are drawn because of the park and the 
unparalleled experience of our first national park and the 
surrounding areas.
    We believe, as business owners benefiting from Yellowstone, 
we owe the park in return. Our business donates one percent of 
its gross sales to the park through the Yellowstone Park 
Foundation. Craig and I are on the board of the Yellowstone 
Park Foundation and the Greater Yellowstone Coalition. We feel 
we owe the park the best protection that can be given and are 
committed to act as unselfish stewards of Yellowstone.
    When the park made the decision to phase out snowmobiles, 
it was based on years of science, a foundation of law and 
extensive public input. The EPA said that the Park Service and 
environmental impact statement was among the most thorough and 
substantial science based that they had seen supporting the 
NEPA document. That law of science and public opinion that form 
the park's decision to restore pure air, peace and quiet to 
Yellowstone could not be more clear.
    In the most recent round of public comment, 82 percent of 
the thousands of citizens who took time to express their 
opinions told the Park Service to uphold the original decision 
to phase out snowmobiles. Scientists from around the country 
told Secretary of the Interior Gail Norton that continued 
snowmobile use harms the park's wildlife and is in violation of 
the law. Americans treasure Yellowstone and we who are 
privileged to live at its doorsteps bear the heaviest 
responsibility for its protection. Our future and the future of 
the town depends on the park.
    I deeply care about my community and have sadly watched as 
our winter economy has turn into the company store single 
business economy, leaving out the smaller businesses as the 
years go past. The snowmobile ban is the best thing for West 
Yellowstone and Yellowstone Park. By protecting Yellowstone, it 
will open the doors for newer winter business growth in town.
    Snowmobiling will always be an important segment of our 
winter economy, but no longer can it be acceptable in 
Yellowstone. A snow coach system into the park will open up all 
kinds of opportunities for local businesses. They can promote 
Yellowstone to everyone, not just snowmobilers. Many visitors 
to Yellowstone will welcome such an opportunity. Skiers, 
families, older people, local and regional visitors who avoid 
intensive snowmobile areas. The opportunities are limitless to 
attract new visitor groups.
    We don't need more debate or controversy. This is pulling 
our town apart. We need help with the job at hand, implementing 
a snow coach system to protect Yellowstone and to provide the 
highest quality experience to the park's visitors and to make 
sure our local economy gets the help it needs to weather the 
transition and flourish with increased diversity.
    Many business persons and residents of our town support the 
snowmobile phase out in Yellowstone. Two years ago, over 150 
people, about one third of the voting population signed a 
petition. A call for a healthy economy and a healthy park, 
supporting the park's decision and asking Congress to go 
forward with the phase out. Numerous letters from townspeople 
have been sent to Congress urging support of the snowmobile 
phase out.
    The message is clear. Please protect Yellowstone. Our 
community and our livelihoods will thrive and we will not fall 
into economic ruin. The House Small Business Committee is in a 
unique position to assist our town as we make this overdue and 
necessary transition. The goal must be made as easy as possible 
on our local business people. This can be accomplished by 
providing low interest loans and assistance to new and expanded 
snow coach operations.
    The key to our town's success obviously will be a continued 
influx of winter tourists. Yellowstone Park's a tremendous 
draw, which will continue to serve us as long as we protect it. 
Remember, no one is closing the gates. Marketing, advertising, 
public education similar to that undertaken following the 1988 
fires will help us minimize any dip in visitation.
    Last March, because of a low snow pack, the roads to 
Yellowstone were closed early and the winter visitor could only 
enter the park in buses. The buses were packed. The city sales 
tax collections for that month jumped 40 percent. The people 
will come. We just need to be ready for them.
    In summary, I ask the committee to support a sustainable 
economy for West Yellowstone and please don't compromise 
Yellowstone. It's the only one we have. Thank you.
    Chairman Manzullo. Thank you very much.
    Ms. Mathews. I have some attachments.
    Chairman Manzullo. Yes. They will be made part of the 
record.
    [Ms. Mathews' statement may be found in appendix.]
    Chairman Manzullo. And this is your first time before a 
congressional Committee?
    Ms. Mathews. Yes.
    Chairman Manzullo. You did very well. Thank you.
    Our next witness will be Glen Loomis because Bob Coe is not 
here.

       STATEMENT OF GLEN LOOMIS, YELLOWSTONE MOTORSPORTS

    Mr. Loomis. I do have an overhead that I'd like to show in 
a minute, if somebody could turn that on for me. There she 
comes.
    Chairman Manzullo. Glen, you might want to use that 
portable mic. It appears to be hotter.
    Mr. Loomis. My name is Glen Loomis. I live in West 
Yellowstone, part of a family business. We have snowmobile 
rentals, snow coach rentals and motels. My father visited 
Yellowstone in 1914 in a covered wagon. Took them 32 days to 
see Yellowstone. Now I didn't see that option being evaluated. 
Maybe they should go back and add that as an alternative. It 
didn't work real well in the winter, however.
    I think that the main thing we have to consider is that 
access is really what we're talking about; winter as well as 
summer. How do we access Yellowstone? So let me give you a 
couple of issues that I'd like to touch on.
    I've been on the town council going on the 11th year here 
in West Yellowstone. I served as mayor for five; presently the 
deputy mayor. Basically it seems to me what happens in 
Yellowstone happens to the businesses in West Yellowstone and 
happens to our town. We have a very cyclic response to 
visitation. So I'd like to show this overhead. It shows the 
resort tax collections for the past few years.
    As you can see, we have a very cyclic impact. The summer is 
very heavy visitation, the Fall is almost nothing. We have a 
blip in the winter. The spring again is almost nothing. And yet 
businesses such as mine have to make monthly payments. And so 
you have to have some stability to make monthly payments and to 
make the payroll.
    Ms. Mathews referred to the blip last year in March, so let 
me give you a thought on that. We do need diversity. We had a 
special snow shoot that was invited to town and they came. We 
had a special ski race. But the real problem is collection of 
taxes, resort taxes that are already delinquent. We do get some 
special payments on delinquent taxes. As of yesterday, the town 
is experiencing right now around 50,000 dollars in delinquent 
resort tax payments. Hopefully they'll come in. And I have to 
tell you, I don't care what month they come in, they need to be 
paid. We already are stressed.
    I'd like to also point out that there's a number of things 
that have been discussed about technology. Things have changed. 
There is clean, quiet technology for snowmobiles. There are 
snow coaches. Our business, our family business uses this 
particular piece as an advertising piece. [Copy of the brochure 
may be found in the appendix.]
    We made 180,000, and the first page talks about snowmobile 
tours and packages available.
    The second page equally talks about snow coach tours. Year 
to date, our snow coach reservations equal four point six eight 
percent of our reservations. Why is there apprehension in my 
business? If there were 50 percent booking snow coaches and 50 
percent booking snowmobiles, the thought that there could be an 
easy transition would not make me apprehensive. But when you're 
at four point six eight percent, where are they coming from and 
how are you going to change? That's of concern to me. I'd like 
to summarize a couple of thoughts.
    We do need to protect Yellowstone. No question about it. I 
want it protected as much as anybody does. There are limits, so 
there need to be some adjustments in terms of winter use. I 
don't deny that. But the new technology of clean, quiet 
snowmobiles do not impact the land, the air or the water 
because they travel on the same roads as the cars do in the 
summertime. About 50,000 winter visitors from West Yellowstone. 
Almost three million for the year. Seems to me that we've got 
things way out of perspective in terms of what's important.
    It is true, the park does not exist for the gateway 
communities. But think about it, the gateway communities do 
exist for the park. They provide the necessary support and the 
development so the park does not have to provide it inside 
their boundaries. So if we protect historical use--historical 
visitation--businesses such as mine may be able to succeed. But 
if we jump off with an immediate ban--how do we make up the 
four point six eight percent snow coach riders that we have now 
and continue to make our monthly payments while meeting the 
payroll. Animal impacts can be mitigated. The tests that they 
have already talked about, the pilot studies, show that.
    Finally I'd just like to say this one thing. My major 
concern is to assure summer and winter access for my 
grandchildren and my grandchildren's children in an 
environmentally friendly atmosphere. And I'm tired of certain 
groups crying ``the sky is falling'' and our government rushing 
to eliminate access to our public lands. Thank you.
    [Applause.]
    [Mr. Loomis' statement may be found in appendix.]
    Chairman Manzullo. I've never had an audience applaud 
whenever a witness has testified.
    Mr. Rehberg. Just when you're introduced they're allowed.
    Chairman Manzullo. No, that doesn't happen either. 
Congressman Rehberg, why don't you go ahead. First of all, I 
want to thank you for the quality of the testimony. It's all 
local. You're all local residents. You all feel very strong 
about this and I appreciate this.
    Mr. Rehberg. Thank you. I'd like to--when--Glen, when you 
were talking, you pointed something out to me that I hadn't 
thought about with the makeup of the panel. I wanted to--I want 
to address real briefly. And that is Glen, Clyde and Bob, 
you're all involved in the housing--besides the rental of the 
snowmobiles, the housing arena or the provision of an 
opportunity for people once they get here to stay here. So I'll 
ask Melissa and Jackie, do you have any involvement in the 
housing within West Yellowstone?
    Ms. Buller. We don't own hotels.
    Mr. Rehberg. You don't own hotels or bed and breakfasts or 
anything like that. So you're pure service providers and 
they're service providers in kind of a basic industry.
    Do you worry, Jackie and Melissa, that if they can't meet 
their payroll--these are the hard, cruel realities of making 
the payments on the equipment, the staff, the people that clean 
the rooms, the restaurant located within those, that if they 
don't or can't stay in business because they can't meet their 
payroll because they've diversified their income within their 
own business, snowmobiles, snowshoes, bicycles, snow machines 
and motel rooms, that your service provision would be 
financially impacted within the community. They got to have a 
place to stay. I guess----
    Ms. Mathews. Are you asking if we would be--our service 
business would be impacted?
    Mr. Rehberg. Are you worried that your service provision, 
your business is based upon providing service. If they go out 
of business and you people don't have a place to stay, what are 
you going to do with the people that come to rent your bikes or 
cross country skis?
    Ms. Buller. Is--um, one thing I'd like to point out, if you 
look at----
    Chairman Manzullo. Just a second. I really would appreciate 
if the audience would be quiet. This is a congressional 
hearing. We don't allow participation of that nature on the 
floor--I'm sorry, we do on the floor, but not in the gallery 
and also in the other Committee rooms. I would just appreciate 
if you could remain silent while the witness is testifying. 
This is very difficult for them to do. Thank you. Melissa, 
please.
    Ms. Buller. I know that neither of us want to see any of 
our neighbors go out of business. But what I'd like to go out--
if you look at Glen's sales tax figures for the town and add up 
December, January and February and March, that accounts for 
about a quarter of our annual collections in revenue. So I 
believe, being the good businessmen that these men are, to make 
up for that--if we lose 90 percent of our winter business, 
they're going to lose approximately 20 percent of their annual 
income. I know the wildfires of '88 probably had that 
significant of an economic impact and they managed to survive 
and grow and operate more businesses.
    And I also know that visitors who do use other means of 
transportation will stay in this town. Possibly more visitors, 
if we can have some control over the snowmobile use in this 
community. We talked to people on a daily basis who say they 
will not stay in West Yellowstone because of the noise and the 
air. So we feel that if you can balance the usage--we're not 
asking to eliminate snowmobiles altogether. We think it's an 
important part of the package. But if we can provide more of a 
balance, I think the community will only grow.
    Ms. Mathews. I think that's one of the things that I was 
asking you for, too. As the Small Business Committee, to help 
them with loans and so forth to get them through the phase out 
time period, where they have the opportunity to diversify their 
own winter businesses where they won't be left high and dry 
either.
    Chairman Manzullo. Let me comment on that. Before a loan is 
given, there has to be a business plan. And part of a business 
plan, you have to show that there's a demand for the service; 
that there's a reasonable opportunity to pay back the loan. And 
the testimony that I've heard so far is that there's very 
little demand for the snow coaches. So the government would 
just not come in and say, we're going to help you with the 
transition when so far, there's nothing--no testimony deduced 
as to what it would be transitioning to.
    Ms. Mathews. I think you need to take a look at our 
community. Our community right now is very, very one-sided 
snowmobile only. By opening it up, cleaning it up and turning 
it into a--let's say more user-friendly community during the 
winter months, I think you would find that the numbers of 
people that are drawn to this town to go into the park would 
probably quadruple to what we are doing right now.
    The game is to get us from where we're at now to that point 
and help the existing businesses get through this time period. 
We have a huge potential, which is--I mean, which we have a 
huge draw, which is Yellowstone. The biggest problem we have in 
there right now is the situation. Most people don't want to go 
into the park when the park is overrun with snowmobiles that 
are loud and noisy and obnoxious. Change the park situation, 
change the town a little bit and we can all be a lot better off 
than what we're at right now.
    Mr. Rehberg. I came to the conclusion a long time ago that 
government doesn't create jobs. People do. But what government 
does is often times create a less than favorable environment 
for jobs to be created. And if you want to diversify your 
income, you have to have an opportunity for people not to be 
over regulated and not to be overtaxed; and there is always 
that balance. Diversification of our economy is very important 
but what we have to do is recognize that our job is not to pick 
winners and losers, the snowmobile industry over the cross 
country ski industry. What we have to do is try to create an 
environment so that they can all co-exist. And I guess my 
question to you is, Jackie, when your clientele who are not 
necessarily--well, they might be snowmobilers, when they come 
to this community to rent your cross country skis--that's your 
business, I'm sorry. Do they----
    Chairman Manzullo. Fishing.
    Mr. Rehberg. Oh, you're the fisher person. Do they also 
rent snowmobiles while they're here or are they cross country 
skiing specific?
    Ms. Buller. We have both users. We have some people that 
will rent both snowmobiles and skis. And a lot of our customers 
are strictly skiers or snowshoers.
    Mr. Rehberg. Have you then worked with the Forest Service 
and National Park Service to try to create dual opportunities? 
It seems to me like within the National Park Service there are 
the roads and the snowmobiles are limited to the roads. But 
there's a lot of extra park out there that is not roaded, not 
groomed for snowmobiles that would provide a wonderful, quiet 
opportunity for those that want to cross country ski to do 
that. Have you made those kinds of presentations and 
recommendations?
    Ms. Buller. Well, we would like that but the problem there 
is no access to those areas currently. We have one trail system 
on the edge of town and then we have one small trail that goes 
into Yellowstone from the edge of town. The other ski areas are 
at Old Faithful and Mammoth. And to get to those areas there's 
currently no inexpensive access. You are required to rent a 
snowmobile or take a snow coach tour. So there is no private 
access for a skier to just simply go into the park and ski, 
unless there they're skiing just on the edge of town.
    That's what we're asking for. We're asking for a balance. 
You can see, there's probably a dozen trails that leave town 
and in the park for snowmobiles, and we have two very small 
areas. And that's mainly what we're asking for is to diversify 
and provide experience for both users.
    Mr. Rehberg. I'd like to ask the National Park Service then 
two follow up questions based upon that. Can that be 
considered, additional off site areas as an alternative, when 
you're talking about the number of snow machines or motors 
within the park. Can it have a subset A, creating an 
opportunity for those that want a quiet enjoyment to have 
groomed trails that don't exist today?
    Ms. Buller. We're not necessarily for the trails. We're 
asking for access to the trails.
    Mr. Rehberg. Being someone who cross countries skis, I 
prefer the groomed trails.
    Chairman Manzullo. Could you please state your full name 
and spell the last name?
    Mr. Sacklin. I'm John Sacklin. S-A-C-K-L-I-N. I'm the chief 
of planning and compliance at Yellowstone National Park. In 
answer to your question, Congressman Rehberg, during our 
environmental impact statement process where we look at 
planning for winter activities in Yellowstone National Park, 
we've looked at the whole wide range of winter uses be it 
snowmobiling, access via snow coach, snowshoeing or cross 
country skiing. And in our alternatives we have looked at a 
wide range of ways to attempt to accommodate all users. In the 
new supplemental environmental impact statement, a great deal 
of the focus of that is on snowmobiles and clean, quiet 
technology. But in our range of alternatives, we have looked at 
those non-motorized uses.
    I should note, I think most people from the--from this area 
are aware of it. West Yellowstone, Montana, sitting on the west 
side of Yellowstone National Park also sits in an area of 
important winter wildlife habitat. I think we all recognize 
that winter users, be they non-motorized or motorized, can have 
an impact, an adverse impact on wintering wildlife. So as you 
think about the possible addition of additional trails, 
particularly in the vicinity of West Yellowstone, coming into 
Yellowstone National park, we need to look at other issues such 
as winter wildlife.
    Mr. Rehberg. One additional question then, Mr. Chairman and 
for--in relation to someone Ms. Mathews brought up and the 
statement was made that it's not the National Parks Service's 
charge to look at the economic impact of the ultimate rule, am 
I stating that correctly? That was your intimation, that their 
job is to look at--again, I'm sorry, Melissa. There you go. Is 
that a fair characterization of your statement? That they 
should be looking at the environment, not the economics?
    Ms. Buller. [Nodding.].
    Mr. Rehberg. I guess I'd have to ask a question, because I 
don't know----
    Chairman Manzullo. The Regulatory Flexibility Act mandates 
that whenever there's a change like this, that there must be a 
study done on--for economic impact.
    Ms. Buller. I think that's fair, but you're looking at the 
impact on one specific user.
    Chairman Manzullo. Say it again, Melissa.
    Ms. Buller. Your concern is the impact on one specific 
business.
    Mr. Rehberg. I hope not.
    Chairman Manzullo. That's all small business. That includes 
school districts. They get a considerable amount of money from 
recreation.
    Ms. Buller. I'm not saying that a partnership is not a good 
idea, you know, I definitely think we need to look at the 
economic impacts, but there are more economic impacts than the 
snowmobile use. We can spread the use out.
    Chairman Manzullo. Let me just throw this out. There are 
some groups that want to eliminate mountain bikes. What----
    Ms. Buller. It's already eliminated from the park.
    Chairman Manzullo. Where do your people----
    Ms. Buller. On the Forest Service land.
    Chairman Manzullo. Forest Service. There are some groups 
that want to eliminate mountain biking from the Forest Service.
    Ms. Buller. As well as snowmobiling.
    Chairman Manzullo. What would that do to your industry if 
they were eliminated?
    Ms. Buller. Renting of bicycles is actually a pretty small 
part of our business, so I would say that would definitely 
decrease our rental usage in the summer months. But we actually 
do a significant amount of our rental business occurs when the 
park is closed. People have the ability to bicycle in the park 
with no cars. And that's actually, if you look at our rental 
figures, we do the highest rental of our bicycles in April, 
when the park is actually closed.
    Chairman Manzullo. The--there's an article--Melissa, is 
this your publication, The Greater Yellowstone Report.
    Ms. Mathews. I'm Jackie.
    Chairman Manzullo. Oh, Jackie, I'm sorry. Jackie, this is 
your publication?
    Ms. Mathews. It's not--I sit on the--I'm a board of 
director on the Greater Yellowstone Coalition.
    Chairman Manzullo. I was reading this yesterday. It quotes 
an editorial from the Casper Star Tribune on November first. Do 
not overturn the snowmobile decision. You didn't see this?
    Ms. Mathews. Is that a Greater Yellowstone Coalition 
report?
    Chairman Manzullo. Yes. The Greater Yellowstone Report from 
the Greater Yellowstone Organization.
    Ms. Mathews. I don't believe----
    Chairman Manzullo. The Greater Yellowstone Coalition. 
That's not your group?
    Ms. Mathews. Yes, it is.
    Chairman Manzullo. That is your group. It quotes an 
editorial here. And let me read to you a couple of lines and 
ask each of the people here on the panel to comment on it. It 
said, while the gateway communities may feel a temporary impact 
from a ban on snowmobiles in these parks, the ban will better 
serve the communities by protecting a resource that will 
attract tourists as long as there exists a love of nature.
    The Federal Government however also must recognize that a 
number of businesses around Yellowstone develop their winter 
operations on the basis of the past winter use policy. The 
Interior Department, Forest Service State economic development 
agencies in Wyoming, Montana and Idaho, and the private sector 
should implement programs that will help these businesses to 
make the transition from snowmobile inside the park to other 
services.
    The problem is it didn't say what other services. I'd like 
to ask each of the people here on the panel to fill in that 
blank with what these other services that would be that would 
pick up the impact from banning snowmobiling. Clyde, let me 
start with you and whoever wants to comment.
    Mr. Seely. We are certainly supportive of diversity of 
activities here. We do not oppose reduction of snowmobile 
numbers as long as the snow coach, the new concept snow coach 
is in place and operating to maintain the historic numbers of 
visitors to our area, especially to our town. Because that is 
where we derive our economic base. We cannot wait. We do not 
have the staying power to think about all these grandiose ideas 
and maybe possible alternatives that just might be able to be 
developed. And in the meantime, take--make our bank payments, 
make our payrolls every two weeks and maybe in two to five to 
ten years, there might be some additional opportunity to fill 
up the--fill in the void. We can't wait that long. Neither can 
our community.
    If there's going to be some alternative, we need to work 
for it concurrently with what we have going. The snowmobiles, 
given that reduction in numbers is possible, increased snow 
coaches, we are--Melissa and I are on the bicycle committee 
that she talked about, together. We're working to increase 
visitation in the shoulder seasons. But I don't know how you're 
going--you can't just all of a sudden shut the gate and open 
another gate and maintain the historic levels of visitation 
here without taking a long time to do it; and in the meantime, 
we're going to suffer economically.
    Chairman Manzullo. Anybody else want to comment on the 
editorial? Bob.
    Mr. Walker. Mr. Chairman, when I first got involved in 
Flagg Ranch five years ago, one of the things we tried to do 
was to increase the number of people cross country skiing in 
the area. The Park Service has designated trails away from the 
snowmobile trails so you can ski in the park and in the totally 
isolated area. In fact, one of the trails goes by some hot 
springs that people hike into quite often as well as cross 
country ski.
    We advertised on radio and we promoted it through our 
brochures. We hired a person to do guided cross country skiing 
tours into those areas with zero success. Those trails today 
are used by less than five people per day. They go back into 
that area. I don't believe from our standpoint we have any 
chance of developing a market that is going to help us out 
financially. Thank you.
    Chairman Manzullo. Glen.
    Mr. Loomis. I've been thinking about covered wagon tours in 
the summer, maybe. But whatever we do, it really doesn't 
matter. If they don't come to visit in Yellowstone on a 
historical basis, many of the small businesses are at risk. The 
government actions are real and we just need to continually 
work out a way that will assure that the public can access the 
park in the summer as well as the winter. And I don't care if 
they come for a snow coach ride or a snowmobile ride or to go 
cross country skiing or whatever. But at this point that hasn't 
happened and snowmobile use has expanded. Snow coach traffic 
has only expanded a minimal amount.
    Ms. Mathews. I think the one thing that the Committee 
doesn't realize is the amount of trails--snowmobile groomed 
trails out of the park. In--you have in Basin alone, I believe 
there's a hundred miles of groomed trails where people can come 
to the park and continue--they can go into the park in a snow 
coach and they can continue to snowmobile out of the park. 
Nobody's taking any of that away from them. If you read most of 
the responses from people that come to West Yellowstone to 
snowmobile, the bulk of the tours would prefer to snowmobile 
out of the park. It's better. The trails are better. The 
snowmobiling itself better. They don't really have as much fun 
in the park as they do out of it.
    The other thing too is the Committee is in a unique 
situation right now where--to help design or help fund the 
design of the snow coaches and get that off the ground and 
moving quickly so that there will be a fleet available in the 
real near future.
    Mr. Rehberg. I don't disagree that there are different 
kinds of usage within the snowmobile hobby, but people can 
snowmobile anywhere in Montana. I think that the park is the 
draw. I guess I kind of liken it to riding the monorail at 
Disneyland. Disneyland is out there and if all you could do is 
ride the monorail, you'd never get an opportunity to see the 
rides or see the concessions. And so I guess my question then 
to you, Bob is--and maybe I missed your point and it was a 
question I was going to ask anyhow so maybe you can restate it 
in a different way. You attempted to provide free snow coach 
access for cross country skiers to remote locations and they 
did not fly--or were you going to charge them for that service?
    Mr. Walker. Mr. Chairman, Congressman. No, the location of 
Flagg is the end where you can go with a wheeled vehicle. So 
when you're in our parking lot you're less than two or three 
hundred feet from the ski trails or snowshoe trails. There was 
no reason to provide transportation. It's available right 
there. And those trails go back into the forest land away from 
the snowmobile trails.
    Mr. Rehberg. If your point was to try and find the 
compromise with those that want to eliminate snowmobiles from 
the national park, would it be a reasonable compromise to 
perhaps provide a snow coach opportunity for those that want to 
cross country ski, but to be in where the action is, getting 
off the monorail at Disneyland and see some of the geysers and 
such that they wouldn't have the ability to walk all day long 
to get to or take more than one day to get to. Would you be 
willing to consider providing snow coach accessibility for 
those cross country skiers?
    Mr. Walker. Mr. Chairman, Congressman, if there is a market 
there, we would be doing it. And right now, we take one or two 
snow coaches per day into the Old Faithful area. There's less 
than one percent of those people that go to Yellowstone that 
take skis with them. We do provide that service at an 
additional cost. If there was a market that would help us 
financially, we definitely would provide transportation for 
cross country skiing and we do now if there is a request.
    Mr. Rehberg. Could I ask Clyde the same question?
    Mr. Seely. I'm not sure I got your question correct. We of 
course are willing to and would be anxious to provide snow 
coach or snowmobile rentals to cross country skiers to get them 
into the park. We currently do that. Did I miss your question?
    Mr. Rehberg. Well, I was looking for--what we're trying to 
do, it seems, in the debate is trying to lessen the number of 
motors or at least control the number of motors at the current 
level. And if you do that, there's going to be an additional 
need or--because what's going to happen is over the course of 
the next ten, 20, 30 years, more people are going to want to 
access Yellowstone park than are right now. That's just a fact 
of life.
    The chairman was telling me of a situation in his home 
State within the Forest Service, where now, because of the 
numbers of people accessing the Forest Service, they've banned 
horses. Well, we're not there yet in daily usage, but a day 
will come where people need an area to recreate. So if we're 
looking at alternatives for the National Park Service within 
their rule, to try and lessen the controversy of placing the 
caps on the snow machines themselves, if one of the ways was to 
provide snow coaches paid for by somebody; you own them, 
National Park Service owns them, somebody owns them, to load 
people that want a quiet cross country opportunity to get to 
remote sites, would that be something that ought to be included 
in the alternative?
    Mr. Seely. Sure. But it comes back, Congressman, it comes 
back to the point that several of us have been trying to make. 
That is in the future. That is not this next winter. And we 
cannot survive until those kinds of changes come about. So--and 
the point is that we can take these same numbers of 
snowmobilers and they can recreate or snowmobile outside of 
Yellowstone in the wonderful snowmobiling country we have in 
the forest is absurd because of the numbers of people that 
coming into Yellowstone. Yellowstone is the initial draw. And 
then while they're here, they go to Yellowstone, then they go 
outside of the park. If all of them were to go outside of the 
park, it would create such an overload on the trails that are 
existing in the Forest Service, that that would cease to become 
an enjoyable experience and we'd begin a death spiral there.
    Mr. Rehberg. Could I refer to one of your slides and the 
numbers were over 50,000 visitors. I didn't see the number of 
days that that included. I couldn't read it quick enough and 
divide the number. How many people per day are we talking about 
on average that access the park on snowmobiles? I don't think I 
need the slide. He probably knows the number off the top of his 
head. We were looking at the various alternatives in the prior 
impact statement and it talked about 330 and 700 and such. How 
do those numbers correlated to--on average, daily use to the 
slides you put up?
    Mr. Seely. I'm not sure the average daily use. I would 
suspect that would be around six or 700 average. But you can't 
just flatten everything off and have an average all the way 
through. The peaks and the valleys are real and you have to 
have the peaks in order to get to the average. And you take the 
peaks off and the average suddenly becomes way lower. And so 
that is a great concern. You can see there the--if those peaks 
were all flattened out and put into the valleys, then I presume 
that looks like maybe just looking from here, looks like 650 or 
700 people--machines.
    Mr. Rehberg. So the impact statement that was considered in 
the prior rule that the Bush administrations put on hold for 
consideration did in fact place the cap, didn't take into 
account the peaks and valleys and ultimately there would 
logically be an economic impact on the community.
    Mr. Seely. Exactly. The initial--the situation we're 
currently under is a ban that is in--that is coming up. And 
with that, you can see what the economic impact would be. One 
of the alternatives is a 330 per day cap and ending with 
snowmobiles after Washington's--the Friday after Washington's 
birthday. There's the elongated box. Everything outside of the 
box, as I said earlier, would go away if that alternative is 
accepted. We can't live with that.
    Mr. Rehberg. Being a businessman, I understand the concept 
of supply and demand. If you decrease supply and demand 
continues to increase, there's going to be a rub. If they 
limited it to 330, how will those permits, those daily usage 
permits not just be distributed among you, but will there be a 
charge for them and will it in fact then cause an expense, an 
additional expense to the 330 people to access it? How is that 
decided within that----
    Mr. Seely. Mr. Congressman, I think that's going to have to 
be decided by the planning team. We would like to have some 
input in that, but they would be the ones who would ultimately 
make that decision. Not only do the rental operators need to 
have access with their customers into the park, but also the 
people that come on their private snowmobiles. And it would be 
a very complicated thing to implement any kind of a reduction 
to that extent.
    Mr. Rehberg. But it could end up being a sport for the 
rich, getting into the National Park Service, because the 
permits will not be controlled by the National Park Service, it 
will be controlled--when you limit supply, the price goes up. 
It's just a fact of life.
    Mr. Seely. That's a good assumption. I don't think--at this 
point, we've not heard that there's going to be any additional 
cost for the concessionaires permits or anything like that. But 
supply and demand will drive the cost up. Also, the snow coach 
alternative initially said that it would reduce the cost for 
the consumer to go in the snow coach. That is not the case. We 
can show you charts and graphs and all kinds of background 
information. That is not the case. It will become a very 
expensive way to go.
    Chairman Manzullo. I have a question to ask of Glen. Would 
you explain the stream of tax income that comes from 
snowmobiling?
    Mr. Loomis. You're talking about the resort tax?
    Chairman Manzullo. Right. Let me start in the opposite 
direction. Do the schools in the area depend upon any of the 
taxes generated by snowmobiles?
    Mr. Loomis. Most of the taxes for the schools come from 
property tax.
    Chairman Manzullo. Okay. Mr. Loomis. The property tax 
generates the revenue, but the town has a city resort tax. Now 
that does not fund the school system, per se. It is used by the 
town for its resources to provide city services. About 95 
percent of the town's income comes from that three percent 
resort tax that we were looking at. And as you can see, it's 
very cyclic.
    That runs your sewage system and water system?
    Mr. Loomis. Well, to some extent. The services like water 
and sewer are funded through user charges. They are run pretty 
much from these user charges. They have been supplemented in 
the past from our general fund, but they are primarily funded 
from our user fees. But the other town services provided, like 
police, sidewalks, streets, those kind of things, come from the 
general fund, which are primarily funded from the resort tax.
    Chairman Manzullo. That would be impacted.
    Mr. Loomis. Yes. In the past, as you can see, as the park 
is opened and closes, the income goes up and down tremendously. 
Now, it's up in summer season--down when the park closes, et 
cetera. As the park opens, there's an influx of visitors. As it 
closes, it's immediately affected. Those things are real. It 
affects the business, it affects the income to the city from 
the city resort tax.
    Chairman Manzullo. Appreciate that. Do you want to go into 
the----
    Mr. Rehberg. Let me ask one more question of Jackie, if I 
might. And that is you referred to a survey that had been done 
within the community and about a third of the Respondents or 
150 people reacted positively to the comment. And I wrote down 
healthy community, healthy park. Is that--is that what the 
wording said? Did it speak specifically to an elimination of 
snowmobiling in Yellowstone Park and could we have----
    Ms. Mathews. It is part of----
    Mr. Rehberg. It is part of your--not the statement but the 
actual statement that was put out to their community for their 
public response. Is that part of the----
    Ms. Mathews [continuing]. Question, it is.
    Mr. Rehberg [continuing]. Presentation?
    Ms. Mathews. Would you like me to read the header to it?
    Mr. Rehberg. If you could, please.
    Ms. Mathews. With the changes in the winter management of 
Yellowstone Park looming on the horizon, we the undersigned 
residents and business owners of the West Yellowstone, Montana, 
would like to present our view of the economic reality and 
potential of our community. West Yellowstone is a hardworking 
community with a proud history of adapting to management 
changes in our neighboring park. Our winter economy is robust; 
however, the economic well being of our gateway community 
depends on the health and protection of Yellowstone Park.
    Changes in Yellowstone's winter use must occur in order to 
keep the park healthy. Reports of air and noise pollution hurt 
the reputation of West Yellowstone and the park, which hurts 
the marketing efforts and tourism potential.
    Many predicted the demise of West Yellowstone during the 
fires of 1988. Many local business leaders in our town are 
convinced that the removal of snowmobiles from Yellowstone will 
cause the downfall of our economy. They were mistaken in '88 
and they are mistaken now. West Yellowstone is a resilient 
community able to adapt and take advantage of changes.
    The West Yellowstone area boasts over 300 miles of 
snowmobile trail, excellent cross country skiing, scenic beauty 
and the world's first national park. West Yellowstone will 
thrive as long as the national beauty that attracts visitors 
remains unimpaired.
    For these reasons, we the undersigned residents and 
business owners of West Yellowstone, Montana, ask Senators Max 
Baucus, Conrad Burns, Congressman Rick Hill, Governor Mark 
Racicot and our State legislators, county commissioners and 
national park services to protect Yellowstone Park and thereby 
ensure the visitors will continue to visit West Yellowstone and 
support the community of West Yellowstone as a just, 
diversified and rises to meet any challenges created by park 
management.
    Mr. Rehberg. Chairman Manzullo shared with me the hearing 
notes on the Subcommittee on this very issue, and that preamble 
wasn't in the documentation that was given to the Committee. 
Was that preamble on all of the petitions that were passed out, 
so that--what she just read is not the same as what was 
presented to the Committee as the petition. And so I guess my 
question is when people signed the petition, were they signing 
specifically to their belief----
    Chairman Manzullo. The petition mentioned nothing about 
even limiting snowmobiling.
    Mr. Rehberg. So I guess my question is the preamble----
    Chairman Manzullo. It's just the statement of fact that you 
want to have a good quality of life and maintain the beauty of 
the park.
    Mr. Rehberg. As I look at--I look at the petition as a call 
for the healthy economy and a healthy park and I'm surprised 
everybody in the community didn't sign. I would have.
    Mr. Loomis. I would have.
    Mr. Rehberg. But it didn't speak to the elimination of the 
total ban of snowmobiles.
    Ms. Mathews. I believe it does. Mr. Chairman, partway--
let's see, under the third point there. Many predicted the 
economic demise of West Yellowstone during the fires of '88. 
Today local business leaders are convinced that removal of 
snowmobiles from Yellowstone will cause the downfall of our 
economy. They were mistaken in '88 and they are mistaken now. 
West Yellowstone is a resilient community and able to adapt and 
take advantage of the changes.
    Chairman Manzullo. Let's do this. I'd like to move into 
allowing some of the folks to speak. Anybody here want to give 
a one minute statement in the crowd? Here's what I want to do. 
It's going to be very orderly. It's going to be limited to one 
minute and I'm going to gavel you down. This is an opportunity 
to make a comment, not to enter into a dialogue. We just don't 
have time to do that.
    What I'd like you to do is to try to line up over here 
somewhere next to Glen. We'll do it on a first come first 
person basis. And if you folks could move the line into the 
area here. You're first. Go ahead, stay right there. And then 
sort of get behind the curtain so the rest of the people can 
see what's going on. Then when you make your statement, state 
your name clearly and make sure you spell your last name for 
the record.
    Before we do that, let me go into something that we didn't 
have chance to touch on, and that is that the impact of the 
banning of snowmobiling is not just here at West Yellowstone 
National Park. This park is owned by the taxpayers throughout 
the entire United States. It is a federal issue and it's not 
limited just to the gateway communities. It's important to 
state that, because taxpayers throughout the country pay taxes 
for the purpose of the national park system. And one of the 
reasons that we're having the hearing is the fact that if you 
look at the quantitative impact on cutting back the number of 
production of snowmobiles, the impact is dramatic in the 
manufacturing sector.
    Let me just give you what it means to the district that I 
represent. Rockford, Illinois, in 1981, led the Nation in 
unemployment at 27 percent. There were more people unemployed 
at Rockford, Illinois in 1981 than there were in 1930. Rockford 
is about 35 percent manufacturing based. Most cities are about 
19 percent. Within that city of 150 thousand, there are over a 
thousand factories and many of them one and two people shops. 
Many of those shops make parts for all types of vehicles. They 
make parts for skis, they make parts for snowmobiles, for 
Harley Davidson motorcycles. The manufacturing chain going into 
snowmobiling is also significant. And where we are now, in our 
economy in Rockford, we're at 7.1 percent unemployment.
    I just came back from China where I serve as the chairman 
of the American Chinese parliamentary exchange. If you look at 
what's going on internationally, the United States continues to 
slip in our manufacturing base towards a service base. And 
there are many areas in the city that I represent, and in 
Midwest cities like Cincinnati, Cleveland, or throughout the 
country, that are very much affected by any limitations on the 
number of snowmobiles that are manufactured each year. So there 
is that chain that goes in.
    In addition, the travel industry; the long distance 
industry on telephones; the clothing industry; the host 
industry; the advertising industry, that can be tremendously 
impacted by the decision that is made by the National Park 
Service. It will reverberate across the entire country.
    All right. Let's take the first person. You've been very 
patient. We're going to limit you to one minute.
    Mr. Carsley. Hello, my name is Scott Carsley, C-A-R-S-L-E-
Y. I have been operating a snow coach only business in 
Yellowstone since 1984. In other words, 100 percent of my 
clientele are snow coach passengers. We deal a lot with cross 
country skiers, which we transport in the park. And I remind 
the people in this room that there are other snow coach 
businesses which operate a camp which depend on cross country 
skiers for their living.
    Just like to clarify a couple other points here. Peak 
visitation in Yellowstone during the winter months was the year 
1992-1993. We had 71 thousand visitors that winter. We 
collected 306,000 dollars in resort tax. 1998 and '99----
    Chairman Manzullo. I have to limit it to a minute----
    Mr. Carsley. 60,000 people. I also have two letters I would 
like to submit to the record.
    Chairman Manzullo. That'd be fine. You could just leave 
them right here on the table. That would be fine.
    [The information may be found in appendix.]
    Ms. Mayhue. My name is Drusha Mayhue. M-A-Y-H-U-E. While 
driving here today we were driving behind a sled carriage with 
two snowmobiles attached to it. And I wondered how many people 
can afford a snowmobile to rent or to buy? The majority of 
people cannot afford that. I brought 44 people here to the 
Yellowstone area in September of 1996 and they had a great 
time. But those people won't come back in the wintertime with 
the snowmobiles as the system is now. West Yellowstone is a one 
horse town. They depend exclusively on snowmobiling. There is 
snowmobiling outside the park. It will not shut down 
snowmobiling.
    Change is hard. I know that. I love West Yellowstone. But I 
wonder if when electricity was invented, if the candlestick 
makers, you know, started being concerned about their jobs. I'm 
sure they were. But in the long term. The change was better for 
all of--everybody.
    Chairman Manzullo. Minute's up, thank you.
    Ms. Mayhue. And I just want to say that Kennedy did say ask 
not what your country can do for you but what you can do for 
your country. And I ask what we can do for the Park Service, 
not what they can do for us.
    Chairman Manzullo. All right. Thank you. Like that.
    Mr. Carlson. Thank you, Congressman. My name is Earland 
Carlson, Fort Dodge, Iowa, C-A-R-L-S-O-N. My wife and I are 
here. We have found four other couples we've become friends 
with over the years here. We bring our own snowmobiles. I think 
most of us believe it's a big world. There's room for all of 
us. I, for one, am hurt by the constant park bias against 
snowmobilers that I hear. Time won't permit examples. We think 
that the research was agenda based and I doubt that it can be 
reconstructed by a disinterested third party.
    In Alaska, we heard that the caribou were going to die with 
the pipeline. This summer we learned that the caribou numbers 
have tripled since the pipeline was installed. That's not been 
addressed here today. One of the joys in the park is seeing mom 
and pop with two kids on two snowmobiles. Seven eight year old 
snowmobiles with the thing, going towards newer models. I see 
those mom and pop----
    Chairman Manzullo. Minute's up.
    Mr. Carlson. I call you to attention of dedicated to the 
benefit and enjoyment of the people. Tear down the Northgate if 
you continue this way, Park Service.
    Mr. McCray. Hi, my name is David McCray and I have two----
    Chairman Manzullo. Spell your last name, David.
    Mr. McCray. M-C-C-R-A-Y. I operate 140 snowmobiles. We have 
been in business since the mid sixties. My dad started the 
business. And I want to come in front of you and tell you that 
I represent thousands and tens of thousands of families that 
come and visit me every year. Some of my clients have been with 
me for 25 years in a row and these people came first with their 
children, now they're coming with their grandchildren.
    These people asked me to come here today and tell you that 
this is an important part of their life; important part of 
their family. They are not interested in going in a snow coach. 
They want to protect Yellowstone. They have this as a very 
special day in their life. And also my employees, they cannot 
take a transition period. It just doesn't happen. A transition 
period will--they will lose their houses in a transition 
period. There's a compromise, limited numbers, cleaner, quieter 
snowmobiles. We're going there. We're already there.
    Chairman Manzullo. Thank you.
    Mr. Anderson. My name is Tom Anderson, A-N-D-E-R-S-O-N, 
from Madison, Wisconsin. Close to you, Congressman.
    My wife and I have been coming to Yellowstone for probably 
eight or ten years. We rode yesterday on the four cycle motors. 
Clean, quiet. I own a four cycle engine snowmobile back in 
Wisconsin. I think that's the coming of our industry. If you 
take the 20 percent away from the businesses here that's been 
talked about, only reducing it by 20 percent. As a small 
business owner, if you take 20 percent of my economy, 20 
percent of my income, I might as well close the door. I only 
operate on eight or ten percent of profit. Bear that in mind. 
There are many companies out here, mom and pop, small ones. If 
you take 20 percent away from them, they're going to die. Thank 
you.
    Chairman Manzullo. Thank you, Mr. Anderson.
    Ms. Loeffler. My name is Cheryl Loeffler, L-O-E-F-F-L-E-R, 
and I drive a snow coach previously--previous winters. And the 
impacts I've seen on just environmental issues, snowmobiles 
being driven in the thermal mats, the bacteria mats--excuse me, 
and the incidents with the wildlife, I feel that there needs to 
be quieter machines. There also needs to be education for these 
machines before releasing them on the wild habitat and into the 
national parks or national forests. Granted, there are many 
trails outside the park and I understand that people come to 
the park to enjoy the freedom and of course I'm nervous. Sorry. 
But um, we really need to take a good look at this issue, not 
just from a small business point of aspect but also from 
environmental issues. And there's a lot of off-road travel from 
the snowmobiles and a lot of accidents just because they're not 
familiar with the machine themselves. I would like to see a 
safer environment for all persons.
    Chairman Manzullo. Thank you.
    Ms. Drake. Hello, my name is Valerie Drake. D-R-A-K-E. I 
live in Belgrade, Montana. I just want to talk a little bit, 
since the focus of this is on the economics of the town, about 
changing communities. I have watched not only small towns but 
some of the larger cities in Montana change dramatically over 
the last 25 years. Mills shutting down, railroads shutting 
down. You know, those are some of the biggies. Changes in 
agriculture and lumber. And then also changes in the recreation 
and tourism industry.
    When there's a big industry that is going down, the 
communities are always screaming about we're going gonna die. I 
can sympathize with people. I know they're very concerned 
about--more concerned about say, feeding their families than 
about paying their rents and mortgages.
    But what's really impressed me in watching some of these 
changes over the years is how people get creative and how much 
more quickly those communities turn around and even get 
stronger for that diversity than what they were. So I want to 
urge you to kind of take some of the this doom and gloom with a 
grain of salt. I know it can be very hard----
    Chairman Manzullo. Minute's up. Thank you.
    Mr. Welch. Thank you. I'm Jack Welch. W-E-L-C-H. Not from 
General Electric, however. I'm here on behalf--I'm president of 
the Blue Ribbon Coalition. It's a large group of people 
believing in access, using our public lands in a responsible 
manner. We believe that Yellowstone is an icon and should be 
protected. We also believe access should be provided. We feel 
that there are responsible ways of accessing the park. We feel 
that the new technology is very important and we feel that the 
pilot program that Fran Mainella talked about is a good example 
of when the Park Service steps up and manages the park for an 
activity, this time snowmobiling, it can be successful. So 
we're looking forward to continued snowmobiling in the park and 
thank you for coming.
    Chairman Manzullo. Thank you.
    Ms. Phillips. Thank you. My name is Lisa Phillips, P-H-I-L-
L-I-P-S. I wasn't planning on talking today because I don't 
like doing it, but I had to get up and remind everybody we're 
talking everybody about our national treasure here, something 
very, very special. Something we need to respect with our 
hearts and with our souls. It's not a place where we can all 
run amok.
    I believe there should be a balance of different types of 
recreation but we can't just let everything happen here in all 
areas. And what's really happening, we seem to forget we're not 
talking about small businesses as much as we're talking about 
padding the pockets of large corporations like Suzuki and 
Yamaha. The small businesses, like these gentlemen here, I'm 
afraid that even they're going to get overrun by large outlet 
stores from the bigger businesses, the corporations. We need to 
be very careful where this is headed and not get too passionate 
because I think we all want to protect these very special 
national treasures that we have. Thank you.
    Chairman Manzullo. Thank you.
    Mr. Schmier. My name is Jerry Schmier, S-C-H-M-I-E-R. I've 
been in West Yellowstone about 34 years. I am in the snowmobile 
business. We run about 90 to a hundred snowmobile rentals. Been 
doing it for about 30 years. I'm really concerned about some of 
the statements that I hear. One of the representatives here 
that talked today had mentioned, you know, against the 
snowmobile thing and the coalition, and yet they don't have to 
survive in the winter months. As a matter of fact, good part of 
the winter months, they're gone. They're not here. Their 
business is a summer business only.
    So I know that you got to have a lot of different 
viewpoints from a lot of different people, but believe me, if 
we are even cut to 500 snowmobiles in the park, it's going to 
be devastating. Our peak days is what we depend onto make a 
living. And sometimes, that's a thousand, 1,100, 1,200 
snowmobiles going into the park. Keep in mind, an equal 
amount----
    Chairman Manzullo. Jerry, your time's up. Thank you.
    Mr. Schmier [continuing]. But I hope that you will support 
the snowmobile issue. Thank you very much for being here.
    Chairman Manzullo. Thank you for coming.
    Mr. Steinmuller. My name is David Steinmuller. S-T-E-I-N-M-
U-L-L-E-R. I live about 70 miles north of here in Gallatin 
Gateway, and a couple of weeks, for the second year in a row, 
I'm going to be spending five days back country skiing out of a 
facility in the canyon area of the park, operated by 
Yellowstone Expeditions. Guests stay in small heated structures 
with comfortable beds and there's a larger unit where 
delicious, hearty meals are prepared by the staff each day. The 
staff takes people out in cross country skiing in this back 
country area.
    This is a perfect example of a commercial operation that 
can be encouraged and that could help make up some of the 
economic problems that we've heard about. Thank you. Did I say 
cross country skiing?
    Chairman Manzullo. Yes. Thank you. You don't have to be 
that nervous.
    Ms. Steinmuller. Hi, I'm Pattie Steinmuller. S-T-E-I-N-M-U-
L-L-E-R, and I'm associated with David. I also did the same 
cross country--exclusively cross country ski in this area in 
the park, and in the rendezvous trail system operated by 
national Forest Service. I live 70 miles away in Gallatin 
Gateway. I stay here. I stay in this particular hotel in 
November, when we have cross country skiing, ski camp. I--I'm 
devoted to--committed to helping the West Yellowstone economy 
with my money and also I feel that the park is what we really 
deserve and need to protect. It needs to be protected 
unimpaired for future generations. That is the most important 
mission that even in the economic situation is very important. 
And I think the future of West Yellowstone lies in a very 
diverse economy. In the winter, particularly when the economy 
is so concentrated on the snowmobile----
    Chairman Manzullo. Your minute's up.
    Ms. Steinmuller. And it needs to be more diverse. Thank 
you.
    Chairman Manzullo. Thank you.
    Mr. Heyes. My name's Todd Heyes, H-E-Y-E-S, and it's easy 
for you to say don't be nervous. But I moved to Montana in '68 
to go to school. I've stayed in Montana since then, earning a 
living in western Montana because of the beauty of the 
surrounding areas. In '95, I relocated to West Yellowstone. 
I'll try to keep this short.
    All I can say is the Park Service is the golden goose that 
we're all talking about. You have to keep it healthy. It 
belongs to the whole Nation, not to just West Yellowstone. But 
there is room for both snowmobiles and cross country skiing and 
all sorts of other things. If in fact we can't sell the beauty 
of this area and make a living at it, we don't deserve to be in 
business. Thank you.
    Chairman Manzullo. Thank you.
    Mr. Case. Thank you. My name is Harold Case, C-A-S-E, and 
you probably think I speak funny because I'm from the east. I 
am president of the American Council of Snowmobile Association, 
and I'd like to speak as a snowmobiler.
    I brought 52 people from New Hampshire and Vermont here 
this week. Last year, I brought 29 and they would not ride in 
the snow coach. They're here to snowmobile in the park and they 
are today. Also, I came here in '92. Most of the stores in this 
town were boarded up. Today, look at what you have here. We 
come here, we spend our money. This is what helps the economy 
of this area. With that, I'd like to see the park stay open to 
snowmobiling.
    Chairman Manzullo. Thank you.
    Mr. Slyke. My name's Steve Slyke, S-L-Y-K-E, and I'm a 
school teacher and fly fish guide from Bozeman. As someone who 
often is kind of a welcomer to tourists in this region and 
meets hundreds of people every summer, I'm definitely an 
advocate of Montana and Yellowstone Park. It's a place where I 
fish and have a lot of fun with a lot of people out here.
    One of the issues that come up is when we start discussing 
the West Yellowstone issues and the issues with the 
snowmobiles, people from Minneapolis, Atlanta, Dallas, LA, the 
kind of places where my clients come from, they continually 
hear the headlines of poor air quality and a lot of the things 
that are happening with regards to decibel levels up and down 
the streets of West Yellowstone. This place has a reputation of 
not having conservation first with regarding the park. And a 
lot of people that would otherwise want to be here for 
wintertime have chosen to ski and do other things, even active 
snowmobilers, because they've heard about what's happening in 
the west. And the spin out there right now is not good. And I 
think if we're able to diversify our economy here and have some 
of these other low impact, quiet sports be part of the mix or a 
more prevalent part of the mix, I think the economy overall----
    Chairman Manzullo. Thank you.
    Mr. Slyke [continuing]. And my clients would be willing to 
come back.
    Chairman Manzullo. Thank you.
    Mr. Hollow. My name is John Hollow, I'm a product of the 
park.
    Chairman Manzullo. Spell your name, John.
    Mr. Hollow. Hollow, H-O-L-L-O-W. My mother came here from 
Washington, DC, was drawn to the beauty of the place. My father 
came from Livingston because he was drawn to the beauties of 
the place. And my mother was smart enough to say you can't 
drive----
    Chairman Manzullo. Please put the mic closer.
    Mr. Hollow. She was smart enough to say, you can't drive me 
back east unless we're married; and that's why I say I'm a 
product of the park.
    I'd like you to look at the fact that the park is this 
tremendous carrot. And thinking out of the box, can we use that 
carrot to get people to get off of a motorized vehicle. You 
talk about jobs, but until we get people and use what we have 
to get people to walk, to ski, as Mr. Rehberg does, we're going 
to be a society that continues to increase the number of people 
that die because we're not walking. Three hundred thousand 
people in America will die because they're not exercising. 
You've got a carrot here. Use it.
    Chairman Manzullo. Thank you.
    Mr. Collins. My name is Clark Collins, C-O-L-L-I-N-S, and 
I'm the executive director of the Blue Ribbon Coalition. About 
20 years ago, my folks went into the park in a snow coach. They 
came back saying that it was noisy and smelly and uncomfortable 
and not that great of an experience. Shortly after that, they 
bought snowmobiles and they've been snowmobiling ever since.
    I have now a ten year old granddaughter that is starting to 
snowmobile. And in about six years when she gets her driver's 
license and is able to go into the park, I would like to be 
able to go with my parents, who are still alive and actively 
snowmobiling, and my granddaughter and have four generations on 
a snowmobile trip into the park. I hope you will save that 
experience for us, thank you.
    Chairman Manzullo. Thank you.
    Mr. Wheeler. My name is Paul Wheeler.
    Chairman Manzullo. Spell your name.
    Mr. Wheeler. W-H-E-E-L-E-R. I think what we are ignoring 
here again is the fact that we are talking about economics 
here. We're here to talk about numbers. These gentlemen would 
not be in business if the demand for snowmobiles in Yellowstone 
National Park wasn't there. Yes, I bring my own machines with 
me. We spend probably seven to 800 dollars per trip when we 
come up here. But the fact is the service stations wouldn't be 
open, the cafes wouldn't be open and I'm looking at this from 
sheer numbers. I'm looking at the number of snowmobile rental 
agencies versus the number of bike shops or fishing shops. 
These gentlemen, like I said, would not be in business if the 
demand wasn't there from the public. I bring my family. I want 
to see Yellowstone National Park and I want it to see it on a 
snowmobile. Not a snow coach. Not on skis.
    Chairman Manzullo. Thank you.
    Ms. Van Poolen. Hello. My name is Deborah V-A-N capital P-
O-O-L-E-N, and I'd like to speak to the issue of health. I 
wonder what is economic vitality when you don't have your basic 
health? I have allergies and I cannot stand to ski behind a 
snowmobile. The places where I can go to ski without ensuring 
that there will not be snowmobiles are precious and few; and I 
would love to be able to come in Yellowstone Park and know that 
I won't be inhaling exhaust fumes, which are definitely bad for 
my health.
    I read in a report that in the winter, the pollution in 
West Yellowstone compares to that of Los Angeles. And I'm 
wondering in the future, are people gonna not be able to come 
here at all because the pollution is so horrendous in the 
winter. I would really encourage us to broaden the abilities 
for people to be here and allow the snowmobiles to go into the 
Forest Service lands, the BLM lands, but allow the skiers to 
have some places----
    Chairman Manzullo. Debbie, your time is up. Thank you.
    Ms. Van Poolen. Thank you.
    Mr. Johnson. Mr. Chairman, my name is Jerry Johnson, J-O-H-
N-S-O-N, and it's a pleasure to speak to the Committee on Small 
Business. I wear many hats, one of which is I'm the mayor of 
West Yellowstone. Others are that we have small businesses. My 
family's been here since the forties and I've been here all my 
life.
    What I want to talk to you right now is when people 
downplay the 30 or 25 or 20 percent that would be lost to West 
Yellowstone during the transition period, I own a small 
shopping mall in West Yellowstone and it has eight shops in it, 
one of which is not open in the winter, the rest are all open 
in the winter. And there's no one in that mall that can 
disagree with me that they struggle to make the rent payments. 
They struggle to make the payments to their purveyors. If they 
struggled to make their payments with what we have going on 
now, I struggle because they can't make their payments. If we 
have a transition period that is a 20 percent loss, that is 
going to be devastating to those small business owners.
    Chairman Manzullo. Jerry, thank you.
    Ms. Wheeler. My name is Vicki Wheeler, W-H-E-E-L-E-R. I'm a 
mother and I bring my children to Yellowstone. I love the park. 
I love the colors of the park. I love the geysers in the park. 
I love to go to Artist's Point. I love all of it, and I bring 
friends with me so that they can see it. Those that don't have 
snowmobiles, we usually bring somebody all the time.
    I don't want to destroy the park. It's never been part of 
me to do anything that would hurt the park. I really am 
grateful for the service that's provided and for the new 
dimension that's given to my life, because it's offered me 
things that I wouldn't have otherwise. Thank you.
    Chairman Manzullo. Thank you.
    Ms. Klatt. My may name is Lois Klatt, K-L-A-T-T. Thank you 
for coming to listen to us. I've lived here for 35 years. I'm a 
skier and I ski in the park three or four days every week, and 
I never hear a snowmobile. I never see anybody else. The snow 
machines have to stay on the roads. The skiers can go anywhere. 
I think there's room for everybody in the park.
    [Applause.]
    Ms. Steele. Hello, my name is Raynetta Steele, S-T-E-E-L-E. 
I own a small motel, a restaurant and a lounge and in the 
winter, I struggle just to stay even. And thankfully, I have a 
mortgager who works with me, otherwise, I wouldn't be here. And 
I'll guarantee you I employ about 33 people during the 
wintertime, and if there were no snowmobilers, I would have to 
close and I would not survive. Absolutely not survive. I 
struggle right now to stay even. I could not survive now 
without some help.
    There are some people like Jackie, she gets her money in 
the summertime. I don't get that much money. She closes in the 
wintertime, doesn't survive. Doesn't have to survive. Melissa 
has her partner, herself in her industry. That's all she has to 
care for. But I have 33 people plus.
    Chairman Manzullo. You can talk afterwards about what their 
interactions are. I appreciate your statement. Thank you.
    Mr. Oldroyd. My name is William Oldroyd.
    Chairman Manzullo. Spell your last name.
    Mr. Oldroyd. O-L-D-R-O-Y-D. I'm a hotel operator and owner 
in town. Snowmobile rental operator and owner. I appreciate 
Glen, Bob and Clyde's comments today. I endorse everything 
they've said.
    [Pause.]
    Mr. Oldroyd. If you think the last 30 seconds have been 
quiet, close down the park to snowmobiles.
    Mr. Muir. Hello, my name is Tom Muir. I'm from----
    Chairman Manzullo. Spell your last name.
    Mr. Muir. M-U-I-R. My family and I have been coming to this 
community since 1971 on almost a continuous basis. We have 
snowmobiled in most areas in the North American snowbelt. The 
reason that we return to this community is because of the park. 
It's a unique feature to be able to ride your personal 
snowmobile and almost reach out and touch the park.
    And we sincerely like to leave it the way we found it and 
maybe even make it a little better if possible. We're not 
against change, but please, do not take this unique feature 
away from fellow snowmobilers. Thank you very much.
    Chairman Manzullo. Thank you.
    Ms. Hollow. Janice Hollow, H-O-L-L-O-W, from Helena, 
Montana. Native Montanans. I'm an avid cross country skier and 
this weekend my husband and I came down--we left four friends 
up at Big Sky who will not stay here because the air's 
polluted. And I haven't heard anyone speak about having to pipe 
fresh air in. I don't know, is it a half mile or quarter mile, 
so the people at the gate can have fresh air to take the money 
of the snowmobilers. I believe in diversity. I think if we 
have--learned nothing from Enron, it is West Yellowstone, 
diversify your portfolio.
    Chairman Manzullo. Thank you.
    Mr. Roos. My name is Shane Roos. Last name's spelled R-O-O-
S. I own a small snowmobile rental operation here in West 
Yellowstone. Kind of a unique operation that I don't have a 
motel or any other properties that are associated with it. I 
strictly do snowmobiles. So if I am put out of business, I can 
go do something else. I don't have any property, you know, to 
worry about or anything like that.
    I am still concerned with the access of Yellowstone 
perspective on everybody's comments. I would very much disagree 
with limiting access to Yellowstone National Park or to any 
land in the United States of America for that matter at all. 
I've seen the technology, I have my own mechanic, I've seen the 
technology coming. It's already here. We have snowmobiles that 
use one fourth of the amount of gas as the current two cycle 
motors. The technology's here. It needs to be developed. Give 
it time to be developed. We'd all feel really stupid if we shut 
the park down and all of a sudden came out with a new electric 
snowmobile that has no pollution and no noise. Thank you.
    Chairman Manzullo. Thank you.
    Mr. Gordon. My name is Greg Gordon, I live in Bozeman. 
Heard a lot of arguments today about the economic impacts and I 
think a lot of that seems that some of it is speculative as to 
whether something will be hurt or it will increase, I think we 
need to keep in mind the real issue is the health of ecosystem 
and that with our huge growing population, that we really need 
to recognize that the earth has limits and we need to look at 
what the impacts of snowmobiling in Yellowstone are and keep 
that in mind. We know those impacts. We know that it causes air 
pollution, we know that it impacts wildlife and we recognize 
that. I support the ban on snowmobiling in Yellowstone. I'm an 
avid cross country skier. I would support a ban on skiing if I 
knew that it had an adverse impact upon the area which I lived 
and the wildlife and ecosystem which all our life depends on.
    Chairman Manzullo. Thank you.
    Mr. Schaap. My name is Bill Schaap, S-C-H-A-A-P, retired. 
I've been in the snowmobile business as an employee for many 
years. In 1969, I brought a group of Boy Scouts into 
Yellowstone when it was more or less wilderness. And those men 
now still thank me for that experience because there is no way 
to replace an experience on snowmobile in Yellowstone in the 
hearts of 95 percent of the people. I also have supervised and 
am supervising now a snow coach operation on a part time basis. 
I listen and see the need for people that need to have snow 
coaches with small children and so on. The elderly and so on. 
But also promoting both of these industries for years, the 
interest is not there nationwide. The snow coach industry on 
its own cannot survive. If it gradually evolves into that, I 
would be very surprised. Thank you.
    Chairman Manzullo. Thank you.
    Mr. Bluth. Thank you for your time. My name is Rick Bluth, 
B-L-U-T-H. I'm from the State of Utah. I'm here as a tourist 
and I'd like to testify as a tourist. I come here, bring my 
family, spend my money here. I come here primarily because the 
park is here. We have the greatest snow on earth. We're 
bragging Utah. I don't need to come here, but I choose to come 
here because the park's here and I like to snowmobile and that 
sounds like--that was all I had to stay. Thank you.
    Chairman Manzullo. Thank you.
    Mr. Krauss. My name is Jeff Krauss, K-R-A-U-S-S, and I'm a 
resident of Gallatin County.
    You ask a question about the economic impacts on the 
schools, and while it's true that the schools don't get any 
resort tax, generally the schools are financed by property 
taxes. Those property taxes are paid by buildings like this 
that depend on the industry. And if you take that industry away 
and these businesses go out of business, you will reduce the 
property taxes that the schools get and you will have a 
significant impact on the schools. And I just wanted that for 
the record since you asked. Thanks.
    Chairman Manzullo. Thank you.
    Mr. Rehberg. You have three more.
    Mr. Andreason. My name is John Andreason and I'm from Utah.
    Chairman Manzullo. Spell your last name.
    Mr. Andreason. A-N-D-R-E-A-S-O-N. My family has a cabin in 
Island Park. I rode my sled over here today just because I seen 
this meeting in the paper, and I wanted to come and throw my 
two cents worth in.
    I love snowmobiling. I've had my own sled since 1969 and 
I've been bringing people here to the park and to the 
surrounding area to recreate and try to encourage people into 
the snowmobile industry since 1975. My family loves it. My wife 
broke her arm on a brand new sled two years ago, but it's just 
one of those things. I love snowmobiling and I would like to 
invite you to go for a ride anytime you want.
    Chairman Manzullo. I am right, after this.
    Mr. Andreason. I would love to take you for a ride anytime 
you want to go.
    Chairman Manzullo. Thank you for your testimony.
    Mr. Andreason. I love snowmobiling and I love West 
Yellowstone.
    Chairman Manzullo. The lady who is in line now will be the 
last person that will give testimony.
    Mr. Winter. My name is David Winter and I own two retail 
businesses in West Yellowstone. They're not snowmobile related 
but all our income in the wintertime is generated strictly from 
snowmobilers. If you ask the majority of the businesses in 
town, they will all tell you that the skiing industry does not 
support West Yellowstone. We cannot make it on cross country 
skiing alone. We bought a snowmobile just to access Yellowstone 
in the winter because we love the park. That's why we're here.
    But there is room for everybody. Skiers can go anywhere in 
the park they choose to go. Snowmobilers are restricted to the 
roads, period. And you really need to look at this impact that 
it's going to have on this town and businesses all over the 
country. Thank you.
    Mr. Roberson. Hi, my name is Randy Roberson, R-O-B-E-R-S-O-
N. I am in agreement with what Clyde and Glen and Bill had to 
say here today. I'm in the snowmobile, snow coach, bus tour and 
lodging business here in West Yellowstone. I grew up here. And 
I just want to comment that, you know, Yellowstone wasn't 
locked up during the evolution of EPA compliant automobiles, 
and we're on the threshold of having EPA compliant snowmobiles. 
So let's don't lock them out right now. Being in all four of 
those businesses, I'll tell you if I thought it was such a 
great economic idea for me to ban snowmobiles, I wouldn't be so 
opposed against it.
    Chairman Manzullo. Thank you.
    Ms. Bayley. My name is Shirley Bayley, B-A-Y-L-E-Y. I've 
never done this before. I'm a cross country skier, a snowshoer, 
a supporter of Free Heel and Wheel store, but I also really do 
like to be tolerant and look at the broad picture and try to 
figure out how we can do this for everybody. You know, 
economically and environmentally. I would like to challenge the 
man who had the moment of silence. I would like to say, okay, 
I'll get on a snowmobile and see what it's like, but I would 
also like to challenge snowmobilers to get off the snowmobile, 
turn off the engine and experience the silence of the park and 
the world. Silence is just something that's beyond economics 
and environment. It is a gift to all of us, that I would like 
not to lose for anybody. Thank you.
    Chairman Manzullo. And the lady here will be the last 
person to testify.
    Ms. Zymonas. I wrote my thoughts down. My name is Joanie 
Zymonas, Z-Y-M-O-N-A-S, and I feel so strongly about protecting 
Yellowstone National Park that I stand here before you to 
volunteer my time and help anyone who chooses to make a 
positive change by helping phasing out snowmobiles in the park. 
I would gladly share my knowledge of installing computer 
accounting software or bookkeeping, office management. I also 
am a trained jeweler, so I can share that skill with anyone who 
would like to learn. I commend anyone out there only to stand 
out and make a change. There are other ways out in the world to 
make a living.
    I find it very disturbing that the children of this 
community requested restrictions on snowmobile use because the 
noise impacted them during the school day and the adults of 
this community voted it down. I think all community members 
should be heard. There is at the chamber of commerce in Bozeman 
and I'm sure they would provide that service for anyone here. 
It's called SCORE. Service Corps of Retired Executives. They 
give free information for anybody who wants to become an 
entrepreneur and open up their own business. I spoke with some 
of them and they give free information. They're there to help.
    Chairman Manzullo. Thank you. Congressman Rehberg, want to 
give a closing statement?
    Mr. Rehberg. Yes, Mr. Chairman, I want to once again thank 
you for making your time available to come out and listen to 
the residents of the State of Montana and our guests from our 
surrounding States. I want to thank the panelists for bringing 
their testimony forward and understand that it would be carried 
forward not only in the United States Congress but to the 
national park services as they attempt to make their various 
recommendations.
    It's a testament to the people of the Montana that as we 
listen to the one minute comments, that it was almost pro and 
then con and pro and con, but done in a very civil way. And 
that's the way Montana is.
    Chairman Manzullo. I think you should all give yourself a 
big hand for that.
    [Applause.]
    Mr. Rehberg. The emotionalism that is usually surrounding a 
national issue such as land usage can oftentimes cloud our 
ultimate decision making process. But those of us that take 
public administration seriously always want to have an 
opportunity to hear from you. We represent you in the United 
States Congress. And sometimes that's hard because in some 
issues, it's split 50/50 or 70/30, and it's hard to make those 
decisions, but we try to make the right decision. We can't do 
that without your input. That was what this hearing today was 
an opportunity to do.
    Again, I thank Chairman Manzullo. I have a placard on the 
back table back there. It's a comment card. It's got my toll 
free number, got my Web page, got my email address. I 
continually look for ways to open up the dialogue to include 
the people that I represent in Congress. If I can serve as any 
intermediary between the Federal Government, sometimes doesn't 
sound like it's listening to you or doesn't seem to care, we 
hope to fill that role. If you'll pick up one of those cards, 
fill out the comment card if you have additional information, 
if you just like to get on our list. My gentleman back there, 
Tom, is holding it up. You can see it's a yellow card. It's for 
comments. I hope that you will take the time to do that. I 
thank you for taking your time out of busy days. I know we've 
only got 24 hours in a day. It's important enough for you to be 
here. I thank you again, Don, for taking time out of your 
schedule to be in Montana.
    Chairman Manzullo. Thank you very much. First of all, I 
want to thank the witnesses that have testified. You're all 
local business people. You don't come from national 
organizations with a national agenda but you're testifying from 
the heart as to how these proposed regulations will impact you 
and the community. We could listen to the professionals from 
the big organizations in Washington. But when we come out here 
to a field hearing, the very purpose of that is to hear the 
hearts and attentions of the people who are dramatically 
impacted by it.
    I want to commend the five panelists here and everybody 
else in the room, especially those who also got up and made the 
statements. I also want to thank the Park Service for being 
here, listening, taking lots of notes, making sure that this 
undoubtedly will be part of the comment period because that's 
the reason for this hearing.
    The name of the hearing is Protecting Small Businesses and 
National Parks: The Goals Are Not Mutually Exclusive. I think 
it's important that that is the perspective from which I come 
as chairman of the Small Business Committee. As I've listened 
to the testimony here, it's obvious there is room to meet the 
interests of everybody. The new four cycle engines, our new 
generation, it's not the two cycle, noisy, polluting machines 
of the past.
    But also is the opportunity to take what is a very 
difficult situation and to turn that around for good for entire 
community. I've never fly fished before. I'll be back. I've 
never been on a mountain before bike before. I'll be back. In 
fact, I was telling Denny on the way down here, I've got to 
find a reason to come back in the summertime. And he suggested 
another reason for a hearing. And we can find good reasons to 
do that. The quality of the testimony and the demeanor of the 
people here, I believe, is exemplary of the process that's 
going on.
    The part of Illinois that I represent contains a 13,000 
acre facility formerly known as the Savannah Army depot. During 
World War One it was an ordnance center, where ordnance was 
fired to test the quality of the range, et cetera. Several 
years ago, 400 jobs were lost from that area as a result of the 
latest round of closing down military bases. In the midst of 
trying to piece together a recovery plan, we ran into an 
incredible log jam with, not the Park Service but the Fish and 
Wildlife Service, the local redevelopment agency, the State and 
Federal EPA and the Department of Army.
    I saw all this--I don't want to use the word contention, 
but lack of coordination going on, because everybody was trying 
to get their interests involved. In fact this area right on the 
Mississippi. It has part of the glacial prairie in it. Very few 
areas in the world that have glacial prairie area. It's also a 
nesting ground for bald eagles. You wouldn't think you'd have 
these things in northern Illinois. And right next to it is the 
largest mallard duck breeding facility in the world in a little 
town called Hanover, Illinois.
    So our area, even though it's heavily industrialized, also 
is very sensitive ecologically. We have 12 super fund sites in 
our congressional district. We always have to look at balance. 
How do we balance the needs of nature with the needs of man. 
How do we balance keeping people in the business at the same 
time making sure at that time goal and the mission of the 
national parks system is maintained. One of the ways that we 
could that is through hearings and public forum like this. 
People come together, they put the input.
    As I listened to the testimony of all the witnesses, it 
occurs to me that there is a way that the National Park Service 
can come up with a plan to satisfy everybody's interests. Maybe 
not to the extent that they would want, but to satisfy and 
still keep the park system as pristine as all of us want it to 
be.
    When I was in China two weeks ago, I had the opportunity to 
speak at Fudan University. This is a group of about 250 
students that are studying the American government. And I'm 
invited to go back in November and teach the basis of 
constitutional law and what gives rise to the freedom in this 
country. At the end of that incredible two hour forum, a young 
man stood up, speaking English in a very nervous tone. It was a 
second language. He said you know, Congressman, maybe one of 
the reasons that the Chinese do not understand the Americans is 
the fact that in our country, we don't have the freedom of 
expression that you have. And the place was very silent. And on 
the way out, the Chinese interpreter said Congressman, five 
years ago, nobody could make that statement without being 
ushered off. She said, now people can make these statements.
    What these 250 young Chinese are doing is they're studying 
the genius of the American system. I wish they could have been 
here today. This is the town hall meeting, this is the type of 
meeting that exemplifies the beauty of the First Amendment and 
the need for everybody to have a part in making America the 
great Nation that it is.
    Again, thank you for coming. We appreciate the opportunity 
to be here and I will be on a snowmobile or snow coach within 
one hour. Thanks again. This meeting is adjourned.
    [Whereupon, at 12:25 p.m., the Committee was adjourned.]


    
    [GRAPHIC] [TIFF OMITTED] 78291A.005
    
    [GRAPHIC] [TIFF OMITTED] 78291A.006
    
    [GRAPHIC] [TIFF OMITTED] 78291A.007
    
    [GRAPHIC] [TIFF OMITTED] 78291A.008
    
    [GRAPHIC] [TIFF OMITTED] 78291A.009
    
    [GRAPHIC] [TIFF OMITTED] 78291A.010
    
    [GRAPHIC] [TIFF OMITTED] 78291A.011
    
    [GRAPHIC] [TIFF OMITTED] 78291A.012
    
    [GRAPHIC] [TIFF OMITTED] 78291A.013
    
    [GRAPHIC] [TIFF OMITTED] 78291A.014
    
    [GRAPHIC] [TIFF OMITTED] 78291A.015
    
    [GRAPHIC] [TIFF OMITTED] 78291A.017
    
    [GRAPHIC] [TIFF OMITTED] 78291A.018
    
    [GRAPHIC] [TIFF OMITTED] 78291A.019
    
    [GRAPHIC] [TIFF OMITTED] 78291A.020
    
    [GRAPHIC] [TIFF OMITTED] 78291A.021
    
    [GRAPHIC] [TIFF OMITTED] 78291A.022
    
    [GRAPHIC] [TIFF OMITTED] 78291A.023
    
    [GRAPHIC] [TIFF OMITTED] 78291A.024
    
    [GRAPHIC] [TIFF OMITTED] 78291A.025
    
    [GRAPHIC] [TIFF OMITTED] 78291A.026
    
    [GRAPHIC] [TIFF OMITTED] 78291A.027
    
    [GRAPHIC] [TIFF OMITTED] 78291A.028
    
    [GRAPHIC] [TIFF OMITTED] 78291A.029
    
    [GRAPHIC] [TIFF OMITTED] 78291A.030
    
    [GRAPHIC] [TIFF OMITTED] 78291A.031
    
    [GRAPHIC] [TIFF OMITTED] 78291A.032
    
    [GRAPHIC] [TIFF OMITTED] 78291A.033
    
    [GRAPHIC] [TIFF OMITTED] 78291A.034
    
    [GRAPHIC] [TIFF OMITTED] 78291A.035
    
    [GRAPHIC] [TIFF OMITTED] 78291A.036
    
    [GRAPHIC] [TIFF OMITTED] 78291A.037
    
    [GRAPHIC] [TIFF OMITTED] 78291A.038
    
    [GRAPHIC] [TIFF OMITTED] 78291A.039
    
    [GRAPHIC] [TIFF OMITTED] 78291A.040
    
    [GRAPHIC] [TIFF OMITTED] 78291A.041
    
    [GRAPHIC] [TIFF OMITTED] 78291A.042
    
    [GRAPHIC] [TIFF OMITTED] 78291A.043
    
    [GRAPHIC] [TIFF OMITTED] 78291A.044
    
    [GRAPHIC] [TIFF OMITTED] 78291A.045
    
    [GRAPHIC] [TIFF OMITTED] 78291A.046
    
    [GRAPHIC] [TIFF OMITTED] 78291A.047
    
    [GRAPHIC] [TIFF OMITTED] 78291A.048
    
    [GRAPHIC] [TIFF OMITTED] 78291A.049
    
    [GRAPHIC] [TIFF OMITTED] 78291A.050
    
    [GRAPHIC] [TIFF OMITTED] 78291A.051
    
    [GRAPHIC] [TIFF OMITTED] 78291A.052
    
    [GRAPHIC] [TIFF OMITTED] 78291A.053
    
    [GRAPHIC] [TIFF OMITTED] 78291A.054
    
    [GRAPHIC] [TIFF OMITTED] 78291A.055
    
    [GRAPHIC] [TIFF OMITTED] 78291A.056
    
    [GRAPHIC] [TIFF OMITTED] 78291A.057
    
    [GRAPHIC] [TIFF OMITTED] 78291A.058
    
    [GRAPHIC] [TIFF OMITTED] 78291A.059
    
    [GRAPHIC] [TIFF OMITTED] 78291A.060
    
    [GRAPHIC] [TIFF OMITTED] 78291A.061
    
    [GRAPHIC] [TIFF OMITTED] 78291A.062
    
    [GRAPHIC] [TIFF OMITTED] 78291A.063
    
    [GRAPHIC] [TIFF OMITTED] 78291A.064
    
    [GRAPHIC] [TIFF OMITTED] 78291A.065
    
    [GRAPHIC] [TIFF OMITTED] 78291A.066
    
    [GRAPHIC] [TIFF OMITTED] 78291A.067
    
    [GRAPHIC] [TIFF OMITTED] 78291A.068
    
    [GRAPHIC] [TIFF OMITTED] 78291A.069
    
    [GRAPHIC] [TIFF OMITTED] 78291A.070
    
    [GRAPHIC] [TIFF OMITTED] 78291A.071
    
    [GRAPHIC] [TIFF OMITTED] 78291A.072
    
    [GRAPHIC] [TIFF OMITTED] 78291A.073
    
    [GRAPHIC] [TIFF OMITTED] 78291A.074
    
    [GRAPHIC] [TIFF OMITTED] 78291A.075
    
    [GRAPHIC] [TIFF OMITTED] 78291A.076
    
    [GRAPHIC] [TIFF OMITTED] 78291A.077
    
    [GRAPHIC] [TIFF OMITTED] 78291A.078
    
    [GRAPHIC] [TIFF OMITTED] 78291A.079
    
    [GRAPHIC] [TIFF OMITTED] 78291A.080
    
    [GRAPHIC] [TIFF OMITTED] 78291A.081
    
    [GRAPHIC] [TIFF OMITTED] 78291A.082
    
    [GRAPHIC] [TIFF OMITTED] 78291A.083
    
    [GRAPHIC] [TIFF OMITTED] 78291A.084
    
    [GRAPHIC] [TIFF OMITTED] 78291A.085
    
    [GRAPHIC] [TIFF OMITTED] 78291A.086
    
    [GRAPHIC] [TIFF OMITTED] 78291A.087
    
    [GRAPHIC] [TIFF OMITTED] 78291A.088
    
    [GRAPHIC] [TIFF OMITTED] 78291A.089
    
    [GRAPHIC] [TIFF OMITTED] 78291A.090
    
    [GRAPHIC] [TIFF OMITTED] 78291A.091
    
    [GRAPHIC] [TIFF OMITTED] 78291A.092
    
    [GRAPHIC] [TIFF OMITTED] 78291A.093
    
    [GRAPHIC] [TIFF OMITTED] 78291A.094
    
    [GRAPHIC] [TIFF OMITTED] 78291A.095
    
    [GRAPHIC] [TIFF OMITTED] 78291A.096
    
    [GRAPHIC] [TIFF OMITTED] 78291A.097
    
    [GRAPHIC] [TIFF OMITTED] 78291A.098
    
    [GRAPHIC] [TIFF OMITTED] 78291A.099
    
    [GRAPHIC] [TIFF OMITTED] 78291A.100
    
    [GRAPHIC] [TIFF OMITTED] 78291A.101
    
    [GRAPHIC] [TIFF OMITTED] 78291A.102
    
    [GRAPHIC] [TIFF OMITTED] 78291A.103
    
    [GRAPHIC] [TIFF OMITTED] 78291A.104
    
    [GRAPHIC] [TIFF OMITTED] 78291A.105
    
    [GRAPHIC] [TIFF OMITTED] 78291A.106
    
    [GRAPHIC] [TIFF OMITTED] 78291A.107
    
    [GRAPHIC] [TIFF OMITTED] 78291A.108
    
    [GRAPHIC] [TIFF OMITTED] 78291A.109
    
    [GRAPHIC] [TIFF OMITTED] 78291A.110
    
    [GRAPHIC] [TIFF OMITTED] 78291A.111
    
    [GRAPHIC] [TIFF OMITTED] 78291A.112
    
    [GRAPHIC] [TIFF OMITTED] 78291A.113
    
    [GRAPHIC] [TIFF OMITTED] 78291A.114
    
    [GRAPHIC] [TIFF OMITTED] 78291A.115
    
    [GRAPHIC] [TIFF OMITTED] 78291A.116
    
    [GRAPHIC] [TIFF OMITTED] 78291A.117
    
    [GRAPHIC] [TIFF OMITTED] 78291A.118
    
    [GRAPHIC] [TIFF OMITTED] 78291A.119
    
    [GRAPHIC] [TIFF OMITTED] 78291A.120
    
    [GRAPHIC] [TIFF OMITTED] 78291A.121
    
    [GRAPHIC] [TIFF OMITTED] 78291A.122
    
    [GRAPHIC] [TIFF OMITTED] 78291A.123
    
    [GRAPHIC] [TIFF OMITTED] 78291A.124
    
    [GRAPHIC] [TIFF OMITTED] 78291A.125
    
    [GRAPHIC] [TIFF OMITTED] 78291A.126
    
    [GRAPHIC] [TIFF OMITTED] 78291A.127
    
    [GRAPHIC] [TIFF OMITTED] 78291A.128
    
    [GRAPHIC] [TIFF OMITTED] 78291A.129
    
    [GRAPHIC] [TIFF OMITTED] 78291A.130
    
    [GRAPHIC] [TIFF OMITTED] 78291A.131
    
    [GRAPHIC] [TIFF OMITTED] 78291A.132
    
    [GRAPHIC] [TIFF OMITTED] 78291A.133
    
    [GRAPHIC] [TIFF OMITTED] 78291A.134
    
    [GRAPHIC] [TIFF OMITTED] 78291A.135
    
    [GRAPHIC] [TIFF OMITTED] 78291A.136
    
    [GRAPHIC] [TIFF OMITTED] 78291A.137
    
    [GRAPHIC] [TIFF OMITTED] 78291A.138
    
    [GRAPHIC] [TIFF OMITTED] 78291A.139
    
    [GRAPHIC] [TIFF OMITTED] 78291A.140
    
    [GRAPHIC] [TIFF OMITTED] 78291A.141
    
    [GRAPHIC] [TIFF OMITTED] 78291A.142
    
    [GRAPHIC] [TIFF OMITTED] 78291A.143
    
    [GRAPHIC] [TIFF OMITTED] 78291A.144
    
    [GRAPHIC] [TIFF OMITTED] 78291A.145
    
    [GRAPHIC] [TIFF OMITTED] 78291A.146

</pre></body></html>
